SEC’s Oversight of the Securities
Investor Protection Corporation’s
Activities




                                March 30, 2011
                                Report No. 495
                                                       UNITED STATES
                                  SECURITIES AND EXCHANGE COMMISSION
                                                WASHINGTON. D.C.          20549


     O"F,<::I': 0"
'NSPECTOR GEN" .... ~



                                             MEMORANDUM
                                                       March 30, 2011

              To:             Robert W. Cook, Director, Division of Trading and Markets
                              Carlo V. di Florio, Director, Office of Compliance Inspections and
                               Examinations
                              Mark D. Cahn, General Counsel, Office of the General Counsel

              From:           H. David Katz, Inspector General, Office of Inspector General (OI W;7V

               Subject:       SEC's Oversight of the Securities Investor Protection Corporation's
                              Activities, Report No. 495

              This memorandum transmits the U.S. Securities and Exchange Commission
              DIG's final report detailing the results on our audit of the SEC's oversight of the
              Securities Investor Protection Corporation's activities. This audit was conducted
              as part of our continuous effort to assess management of the Commission's
              programs and operations and as part of our annual audit plan.

               The final report contains 12 recommendations which if fully implemented will
               enhance the SEC's monitoring of the Securities Investor Protection Corporation's
               activities. The respective offices concurred with all the report's
               recommendations. Your written responses to the draft report are included in
               Appendix V.

               Within the next 45 days, please provide the DIG with a written corrective action
               plan that is designed to address the recommendations. The corrective action
               plan should include information such as the responsible official/point of contact,
               timeframes for completing required actions, and milestones identifying how you
               will address the recommendations.




           SEC’s Oversight of the Securities Investor Protection Corporation’s Activities   March 30, 2011
           Report No. 495
                                                                 ii
Should you have any questions regarding this report, please do not hesitate to
contact me. We appreciate the courtesy and cooperation that you and your staff
extended to our auditor during this audit.

Attachment

cc:      Kayla J. Gillan, Deputy Chief of Staff, Office of the Chairman
         Luis A. Aguilar, Commissioner
         Troy A. Paredes, Commissioner
         Elisse B. Walter, Commissioner
         Diego T. Ruiz, Executive Director, Office of the Executive Director
         Lori J. Schock, Director, Office of Investor Education and Advocacy
         Jacob H. Stillman, Solicitor, Office of the General Counsel
         John S. Polise, Associate Director, Office of Compliance Inspections and
           Examinations
         John H. Walsh, Associate Director and Chief Counsel, Office of
           Compliance Inspections and Examinations
         John M. Ramsay, Deputy Director, Division of Trading and Markets




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities   March 30, 2011
Report No. 495
                                                      iii
SEC’s Oversight of the Securities Investor
Protection Corporation’s Activities

                                Executive Summary
Background. As a result of the collapse or near collapse of several broker-
dealers in the late 1960s, 1 Congress enacted the Securities Investor Protection
Act (SIPA) in 1970 to provide investors protection against losses caused by the
failure of broker-dealers. SIPA created the Securities Investor Protection
Corporation (SIPC), which is a not-for-profit membership corporation. 2 SIPC or a
SIPC employee either acts as trustee or works with an independent court-
appointed trustee in liquidations of troubled brokerage firms to recover funds for
investors with the assets of bankrupt or financially troubled brokerage firms. 3 All
broker-dealers registered with the U.S. Securities and Exchange Commission
(SEC or the Commission) under Section 15(b) of the Securities Exchange Act of
1934 are members of SIPC with certain limitations. 4 The Commission is
responsible for monitoring the activities of SIPC. Pursuant to SIPA, the
Commission also has delegated authority to conduct inspections of SIPC, 5
review SIPC annual reports, 6 and approve SIPC’s bylaws, 7 rules, 8 and any
amendments to the bylaws and rules. 9

Objectives. The audit’s objectives were to assess if SEC monitors SIPC’s
activities in accordance with governing legislation. In addition, our audit was
performed to examine if the Commission performs periodic and systematic
inspections of SIPC’s activities. Our audit also focused on determining whether
the Commission conducts meaningful reviews of SIPC’s annual reports. The
Office of Inspector General (OIG) also determined where improvements and best
practices could be implemented for the SEC’s oversight process of SIPC.

Prior OIG Audit Report. The OIG performed an audit of the SEC’s oversight of
SIPC in 2000 10 and made 11 recommendations in its report on that audit. The
Division of Trading and Markets (TM), 11 the Office of Compliance Inspections and
Examinations (OCIE), and the Office of Investor Education and Advocacy (OIEA) 12
implemented most of the prior OIG report’s recommendations. However, TM has

1
  SEC, Inspection Report of Securities Investor Protection Corporation (Apr. 30, 2003), p. 7.
2
  15 U.S.C. §§ 78ccc(a)(1) and (2).
3
  http://www.sipc.org/media/release2.cfm. See also 15 U.S.C. § 78eee(b)(3).
4
  15 U.S.C. § 78ccc(a)(2).
5
  15 U.S.C. § 78ggg(c)(1).
6
  15 U.S.C. § 78ggg(c)(2).
7
  15 U.S.C. § 78ccc(e)(1).
8
  15 U.S.C. § 78ccc(e)(2).
9
  15 U.S.C. §§ 78ccc(e)(1) and (2).
10
   OIG Report No. 301, Oversight of Securities Investor Protection Corporation (Mar. 31, 2000).
11
   TM was known as the Division of Market Regulation in 2000.
12
   OIEA was known as the Office of Investor Education and Assistance in 2000.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                March 30, 2011
Report No. 495
                                                    iv
not implemented the OIG’s recommendation to inform SIPC that it should provide
written documentation of its reasons for denying coverage in particular cases upon
the request of TM and the Division of Enforcement. TM stated that it provided a
copy of the issued OIG audit report to SIPC. 13 Additionally, TM and OCIE have not
implemented the OIG’s recommendation to decide on a review schedule and
inspection scope for future inspections of SIPC as of this date. See Finding 2 for
further discussion.

Finally, TM, OCIE, and the SEC’s New York Regional Office initially implemented
the OIG’s recommendation to conduct periodic briefings on SIPC-related
issues. 14 However, they currently communicate on an as-needed basis and no
longer conduct periodic briefings because such briefings were deemed to be
inefficient in years when there were no SIPC liquidations, such as 2007, 15
2009, 16 and 2010. 17

Results. The OIG found that the SEC’s oversight of SIPC is generally in
compliance with SIPA. However, our audit found that significant improvements
could be made to enhance the process of the SEC’s monitoring of SIPC. We
found that TM and the Office of the General Counsel (OGC) currently do not
have adequate written procedures and policies for monitoring SIPC’s activities.
The written procedures and policies in place for TM’s oversight of SIPC are
limited to a 1999 memorandum that merely lists the SEC’s responsibilities for
monitoring SIPC pursuant to SIPA. 18 The 1999 memorandum does not provide
detailed information about TM’s internal procedures for oversight activities, such
as how to process proposed bylaws or amendments that SIPC submitted or how
reviews of SIPC’s annual reports (including SIPC’s financial statements) are to
be performed. In addition, we found that some of the limited information
contained in the 1999 memorandum is outdated.

Our audit also found that there is inadequate documentation for the SEC’s
oversight role in OGC. OGC provides legal guidance to TM related to SIPA
liquidations and monitors SIPA proceedings that are handled by independent
court-appointed trustees and SIPC. Our audit revealed that internal policies or
procedures regarding OGC’s role relating to SIPC’s oversight are not adequately
documented. 19 Moreover, during the timeframe in which we conducted our audit,
there was a significant staff turnover in the OGC bankruptcy group, as the OGC

13
   SEC, memorandum to the OIG, Information Request on Implementation of Prior OIG Recommendations¸
Jan. 24, 2011.
14
   Id.
15
   According to SIPC’s annual report for 2007. See
http://www.sipc.org/pdf/SIPC_Annual_Report_2007_FINAL.pdf.
16
   According to SIPC’s annual report for 2009. See http://www.sipc.org/pdf/2009%20Annual%20Report.pdf.
17
   According to the OIG’s review of SIPC’s website and inquiry with TM.
18
   TM memorandum, The Commission’s Oversight Role of the Securities Investor Protection Corporation
(“SIPC”), Jun. 24, 1999.
19
   OGC prepared a memorandum for the Commission related to entering notices of appearance in SIPA
liquidations. The memorandum briefly discusses OGC’s monitoring of SIPA liquidations and reviewing fee
applications. However, the memorandum is limited to certain matters and does not list other responsibilities.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities              March 30, 2011
Report No. 495
                                                     v
attorney who provided oversight of SIPC for a number of years retired and was
replaced by another attorney. Due to the inadequate documentation of internal
OGC procedures and policies, we found opposing opinions regarding how SIPC
monitoring activities should be performed. For instance, the new OGC attorney
questioned whether he should conduct certain monitoring efforts that the
previous attorney believed were effective mechanisms for scrutinizing SIPA
liquidations, stating his opinion that such efforts would be too time-consuming for
large SIPA liquidations.

Our audit further found that the SEC does not inspect SIPC’s activities in any
systematic fashion. The SEC last performed a full inspection of SIPC in 2003
and a follow-up inspection in 2005. Despite having made six findings in its 2003
inspection, the SEC does not have any definite plans to inspect SIPC in the near
future.

We found that the Government Accountability Office (GAO) performed an audit of
SIPC in 1992, which included a review of the SEC’s monitoring of SIPC. 20 In that
audit, GAO found that since 1985 the SEC had evaluated SIPC’s operations only
one time and that the SEC had not followed up on the 1985 evaluation to
determine if SIPC addressed its recommendations. GAO recommended that the
SEC periodically review SIPC’s operations and its efforts to ensure timely and
cost-effective liquidations. 21 In response to this recommendation, TM agreed to
inspect SIPC “every four to five years.” 22 The OIG performed an audit of the
SEC’s oversight of SIPC’s activities in March 2000. The OIG found that since
SIPC’s inception in 1970, the SEC had inspected SIPC only two times, once in
1985 and a second time in 1994. The OIG also identified several areas not
addressed in past SIPC inspections that could improve oversight effectiveness
and recommended that TM and OCIE decide on a review schedule and
inspection scope for future SIPC inspections. In response to this
recommendation, TM and OCIE agreed to prepare a review schedule and
inspection scope for future SIPC inspections. Notwithstanding this agreement
and this recommendation being closed, our inquiry with TM and OCIE regarding
this matter revealed that TM and OCIE had never developed a review schedule
or an inspection scope for future SIPC inspections.

In the SEC’s 2003 inspection of SIPC, the SEC identified several deficiencies in
SIPC’s operations regarding its controls over fees, an improperly denied claim,
internal policies and guidance, education initiatives, and funding options. Yet
without additional inspections, the SEC is unable to ensure that these
deficiencies have been appropriately addressed. The SEC has indicated that as
a result of its involvement with the liquidations of Lehman Brothers, Inc.
(Lehman) and Bernard L. Madoff Investment Securities, LLC (Madoff), it is not

20
   GAO, Securities Investor Protection: The Regulatory Framework Has Minimized SIPC’s Losses,
GAO/GGD-92-109 (Sept. 28, 1992).
21
   Id. at 62.
22
   OIG Report No. 301, Oversight of Securities Investor Protection Corporation (Mar. 31, 2000), p. 5.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities              March 30, 2011
Report No. 495
                                                   vi
necessary to conduct further inspections in the near future. Due to the lack of
periodic and systematic inspections of SIPC by the SEC, 14 liquidations, 23 from
2003 to date, have not been subject to the scrutiny of an SEC inspection. 24

The audit also found that the SEC does not perform a review of trustee fees on a
systematic basis. We further found that such reviews are particularly necessary
because of the statutory structure in place regarding trustee fees, which provides
for few, if any, limits on the fees that may be awarded. First, although SIPA
liquidations are similar to ordinary bankruptcy cases, it does not provide any limit
on the amount of trustee fees in SIPA liquidations, unlike bankruptcy cases.
Second, under SIPA, where payments are made out of the SIPC fund, courts
have no discretion whatsoever to limit fees that SIPC has recommended for
trustees or their counsel. Thus, even if a court finds the amount of fees awarded
to the trustee to be excessive, it is required to approve such excessive fees if
SIPC determines that the fees are reasonable. We found that in one case, a
Southern District of New York bankruptcy judge deemed fees to be awarded to
the trustee in a liquidation to be excessive, but found that he had no choice but to
approve the fees. 25 In another instance, a 1974 case decided prior to the
amendment of SIPA in 1978, 26 a court refused to allow SIPC to pay what it
deemed excessive trustee fees. In this case, a Southern District of New York
judge stated, “[We] simply cannot and will not blindly acquiesce—as SIPC
apparently has done—in assessing the fees requested against the trust fund
administered by SIPC. This case points up the probable need for legislative
readjustment of the SIPA and the functions of its administrators.” 27 The Southern
District of New York judge further stated that, “To be sure, the Trustee and his
counsel were additionally faced with somewhat unenviable task of uncovering
Charisma’s assets—which here totaled less than $15.” 28 Third, even where
SIPC advances the funds and there is reasonable expectation of recoupment,
the statute provides the courts with only limited discretion.

In addition, we found that significant criticism and concern have been expressed
about the amount of trustee fees awarded in the two largest liquidations in
SIPC’s history, Lehman and Madoff. According to the latest published report, the
fees paid to the trustee and his counsels processing the Lehman claims for the
period from September 2008 to September 2010 (24 months) totaled

23
   According to the OIG’s comparison of the liquidations reviewed by the SEC based on OCIE’s inspection
records and the liquidations initiated in 2003 and 2004, as noted in SIPC’s annual reports for 2003 and
2004. See http://www.sipc.org/who/annual.cfm for SIPC’s 2003 and 2004 annual reports.
24
   OGC stated that the predecessor attorney monitored the 14 liquidations to ensure that they were
processed timely. The OIG was unable to verify whether such monitoring occurred because there was no
evidence of review.
25
   See In re First State Securities Corp., 48 B.R. 45 (Bankr. S.D. Fla. 1985).
26
   TM stated that, “The Court had discretion to reject fees when this case was decided. Congress overruled
this case when it amended the SIPA in 1978. This case was relied upon by Congress to mandate that
recommendations by SIPC would be binding on the court in ‘no-assets cases’ unless it results in a
controversy with the applicant.”
27
   Securities Investor Protection Corp. v. Charisma Sec. Corp., 371 F. Supp. 894, 899 (S.D.N.Y. 1974), aff’d,
506 F.2d 1191 (2d Cir. 1974).
28
   Id.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                 March 30, 2011
Report No. 495
                                                     vii
approximately $108 million. 29 According to the fourth interim fee application, as
of September 30, 2010, the entire administrative fees, including fees for
accountants, consultants, etc., totaled approximately $420 million. 30 We also
found that the fees paid to the trustee and his counsels processing the Madoff
claims for the period from December 2008 to September 2010 (21 months)
totaled approximately $102 million. 31 The OIG’s review of the trustee fee chart
that SIPC prepared revealed that the hourly rate for trustees assigned to the
Madoff case ranged from $698 to $742. For the Lehman liquidation, SIPC’s
trustee fee chart combined both the trustee’s and the counsels’ time, and the
hourly rate ranged from $437 to $527. Moreover, the fees paid to date for both
the Lehman and Madoff liquidations are a mere fraction of the amounts that will
eventually be sought because while there has been significant progress with
respect to resolving certain customer claims, significant work relating to customer
claims with pending litigation remains to be done. Because the outcome of the
Lehman liquidation is uncertain and SIPC is advancing its own funds to pay the
administrative expenses for the Madoff liquidation, the possibility exists that SIPC
could deplete its $2.5 billion fund. If the SIPC fund is or reasonably appears to
be insufficient, the SEC is authorized to make loans to SIPC by issuing the
Secretary of the Treasury notes or other obligations in an aggregate amount not
to exceed $2.5 billion. 32

Finally, our audit disclosed that many investors are still confused about SIPA
coverage. As indicated by TM and evidenced by OIEA’s log of complaints and
questions regarding SIPC from investors, it is difficult for investors to understand
protection against losses available under SIPA and which securities are covered
under SIPA. We found that certain public service campaigns by SIPC do not fully
describe exceptions to SIPA coverage and are misleading. Due to various
factors that determine coverage under SIPA, it is difficult to explain limitations of
SIPA and inform investors. In addition, many investors do not know about SIPA
until they become aware of the failure of their broker-dealer.

Summary of Recommendations. Our audit determined that several
improvements in the SEC’s monitoring of SIPC’s processes are needed to
ensure proper oversight of SIPC by the SEC pursuant to SIPA.

Specifically, we recommend the following:

        (1) TM should document its procedures and processes for its oversight
            and monitoring of SIPC pursuant to SIPA.

29
   “Trustee’s Fourth Interim Report for the Period May 11, 2010 Through October 26, 2010,” Exhibit 2, last
accessed Mar. 26, 2011, http://dm.epiq11.com/LBI/Project/default.aspx#. Go to Public Reports/Trustee’s
Interim Reports to the Court/Trustee’s Fourth Interim Report: October 26, 2010.
30
   Id.
31
   “Trustee’s Fourth Interim Report for the Period Ending September 30, 2010,” last accessed Mar. 1, 2011,
http://www.madofftrustee.com/documents/FourthInterimReport.pdf. See “Cash Disbursement” chart located
in the back of the Madoff trustee’s Fourth Interim Report.
32
   15 U.S.C. §§ 78ddd(g) and (h).
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities              March 30, 2011
Report No. 495
                                                   viii
         (2) TM should complete its efforts to update its internal memorandum
             which describes its oversight responsibilities under SIPA and include
             its current practices and, where appropriate, the legislative
             amendments that were made to SIPA in July 2010 by the Dodd-Frank
             Wall Street Reform and Consumer Protection Act.

         (3) OGC should consult with TM to clarify its role in monitoring SIPC and
             document the responsibilities and procedures it follows in regard to the
             Commission’s oversight of SIPC.

         (4) OGC should consider the costs and benefits related to certain activities
             that the retired attorney performed and determine what, if any, other
             activities are appropriate to adequately monitor SIPC.

         (5) TM and OCIE should conduct meetings, on at least an annual basis, to
             determine when an inspection of SIPC should occur, based on the
             ongoing liquidations, to ensure systematic and risk based monitoring of
             SIPC’s operations. In these meetings, TM and OCIE should develop a
             schedule for future inspections based upon objective criteria or defined
             risk-factors, such as conducting inspections based upon the number of
             SIPC liquidations.

         (6) TM and OCIE should perform a risk assessment to determine
             problematic areas or liquidations that are deemed to be complex prior
             to the next inspection of SIPC, as they did prior to the commencement
             of the 2003 inspection of SIPC. The scope of each future inspection
             should take into consideration the risk assessment conducted prior to
             the inspection.

         (7) TM, in coordination with OGC, should conduct additional oversight of
             SIPC’s assessments of the reasonableness of trustee fees and
             encourage SIPC to negotiate with outside court-appointed trustees
             more vigorously to obtain a reduction in fees greater than 10 percent.

         (8) The bankruptcy group in OGC and TM should decide on the scope and
             frequency of the Commission staff’s monitoring of SIPC’s assessments
             of the reasonableness of trustee fees paid by SIPC, rather than relying
             only on inspections of SIPC, which do not occur on a systematic basis.

         (9) TM, in consultation with the Commission, shall determine whether to
             request that Congress modify SIPA to allow bankruptcy judges who
             preside over SIPA liquidations to assess the reasonableness of
             administrative fees in all cases where administrative fees are paid by
             SIPC.



SEC’s Oversight of the Securities Investor Protection Corporation’s Activities   March 30, 2011
Report No. 495
                                                      ix
         (10) TM, in coordination with OIEA, should encourage SIPC to
            designate an employee whose responsibilities include improving
            investor education and preventing further confusion among investors
            about coverage available under SIPA.

         (11) TM should support SIPC’s efforts to improve investor education,
            including encouraging SIPC to strongly consider and, as appropriate,
            implement OIEA’s suggestions to improve investor awareness.

         (12) TM, in coordination with OIEA and in consultation with the
            Commission, should utilize more effective methods to communicate
            with investors in case of the failure of broker-dealers, such as notifying
            investors of the status of the Commission’s efforts throughout the
            liquidation process or designating an employee, as appropriate, who
            can communicate directly with investors on matters unique to each
            liquidation case.

A detailed list of our recommendations can be found in Appendix IV.




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities   March 30, 2011
Report No. 495
                                                      x
TABLE OF CONTENTS
Executive Summary ..................................................................................................... iv

Table of Contents ........................................................................................................ xi

Background and Objectives .................................................................................. 1
     Background ....................................................................................................... 1
     Objectives .......................................................................................................... 6

Findings and Recommendations .......................................................................... 7
     Finding 1: TM and OGC Do Not Maintain Adequate Written Procedures
     and Policies for Oversight of SIPC ..................................................................... 7
                   Recommendation 1....................................................................... 9
                   Recommendation 2....................................................................... 9
                   Recommendation 3....................................................................... 9
                   Recommendation 4..................................................................... 10

         Finding 2: TM and OCIE Do Not Inspect SIPC’s Activities in a Systematic
         Fashion ........................................................................................................... 10
                        Recommendation 5..................................................................... 16
                        Recommendation 6..................................................................... 16

         Finding 3: The SEC Does Not Review Fees SIPC Pays to Court-
         Appointed Trustees on a Periodic or Systematic Basis .................................... 17
                      Recommendation 7..................................................................... 26
                      Recommendation 8..................................................................... 27
                      Recommendation 9..................................................................... 27

         Finding 4: SIPA Investor Education Coverage Still Needs Improvement ......... 28
                       Recommendation 10................................................................... 31
                       Recommendation 11................................................................... 31
                       Recommendation 12................................................................... 32

Appendices
    Appendix I: Acronyms/Abbreviations............................................................... 33
    Appendix II: Scope and Methodology............................................................... 34
    Appendix III: Criteria ......................................................................................... 36
    Appendix IV: List of Recommendations ........................................................... 37
    Appendix V: Management’s Comments ........................................................... 40
    Appendix VI: OIG Response to Management’s Comments.............................. 48




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                        March 30, 2011
Report No. 495
                                                         xi
                     Background and Objectives

Background
In 1970, several prominent broker-dealers, including Walston & Co., Bache &
Co., McDonnell & Co., and F.I. duPont, Glore Forgan & Co., 33 became insolvent
or experienced near collapse. From August 1970 to December 1970, three
members or former members of the New York Stock Exchange were forced to go
into bankruptcy or to commence liquidation proceedings. 34 On December 30,
1970, Congress created the Securities Investor Protection Corporation (SIPC) to
provide protection against losses to customers from the failure of a securities firm
under the Securities Investor Protection Act (SIPA). 35 SIPA was created to
establish a substantial reserve fund that would provide protection to customers of
broker-dealers and to reinforce investors’ confidence in the securities industry. 36

Organizational Structure of SIPC. SIPC is a not-for-profit membership
organization 37 that does not regulate its members or examine their financial
condition. 38 All broker-dealers registered with the U.S. Securities and Exchange
Commission (SEC or the Commission) under Section 15(b) of the Securities
Exchange Act of 1934, are members of SIPC, with the following exceptions:

     (i) Persons whose principal business, in the determination of SIPC, taking
     into account business of affiliated entities, is conducted outside the United
     States and its territories and possessions;

     (ii) Persons whose business as a broker or dealer consists exclusively of (I)
     the distribution of shares of registered open end investment companies or unit
     investment trusts, (II) the sale of variable annuities, (III) the business of
     insurance, or (IV) the business of rendering investment advisory services to
     one or more registered investment companies or insurance company
     separate accounts; and

     (iii) Persons who are registered as a broker or dealer pursuant to section
     78o(b)(11)(A) of this title. 39

SIPC has a board consisting of seven directors who determine policies that
govern its operations. 40 SIPC’s board of directors is made up of five directors
who are appointed by the President of the United States and subject to the U.S.
33
   SEC, Unsafe and Unsound Practices of Brokers and Dealers (Dec. 1971), pp. 63-65.
34
   H.R. Rep. No. 91-1613 (1970).
35
   Id.
36
   Id.
37
   15 U.S.C. §§ 78ccc(a)(1) and (2).
38
   SEC, Inspection Report of Securities Investor Protection Corporation (Apr. 30, 2003), p. 7.
39
   15 U.S.C. § 78ccc(a)(2)(A).
40
   15 U.S.C. § 78ccc(c)(1).
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                 March 30, 2011
Report No. 495
                                                     1
Senate’s approval. 41 Three of the five directors represent the securities industry
and two are from the general public. 42 One of the five directors is appointed by
the Secretary of the Treasury and another director is appointed by the Federal
Reserve Board. 43 The Chairman and the Vice Chairman of SIPC’s board of
directors are appointed by the President from the public directors. 44

SIPC’s Role. Pursuant to SIPA, SIPC or a SIPC employee either acts as a
trustee or works with an independent court-appointed trustee in liquidations of
troubled brokerage firms to recover funds for investors with assets held by
bankrupt or financially troubled brokerage firms. 45 The customers of a failed
brokerage firm may receive all non-negotiable securities that are already
registered in their name or negotiable securities that are in the process of being
registered in their name. 46 SIPA protects the custody function that brokerage
firms perform for customers; however, it does not provide protection against a
decline in value of any investment, even if the SIPC member defrauded the
customer into purchasing the investment. 47

SIPC Fund. SIPC maintains a fund that consists of assessments paid by SIPC
members 48 and interest income earned on SIPC investments. Upon consultation
with self-regulatory organizations, SIPC determines assessments based on the
amount necessary to maintain the fund and repay any borrowings by SIPC. 49 If
the SIPC fund is insufficient for payments to customers who have valid SIPA
claims, SIPA allows SIPC to borrow from the Commission, which in turn may
borrow up to $2.5 billion from the Department of the Treasury. 50 The SIPC fund
may be used to cover valid customer claims against a failed broker-dealer, to pay
the costs of administering the liquidation of an estate of a failed broker-dealer,
and for other purposes. 51 Advances from the SIPC fund are limited to $500,000
per customer for claims, 52 and up to $250,000 of the $500,000 can be used to
satisfy claims for cash. 53

SIPA Coverage. SIPA defines “customer” as “any person (including any person
with whom the debtor deals as principal or agent) who has a claim on account of
securities received, acquired, or held by the debtor in the ordinary course of its
business as a broker or dealer from or for the securities accounts of such person



41
   15 U.S.C. § 78ccc(2).
42
   Id.
43
   Id.
44
   15 U.S.C. § 78ccc(c)(3).
45
    http://www.sipc.org/media/release2.cfm. See also 15 U.S.C. § 78eee(b)(3).
46
   Id.
47
   Letter from Stephen Harbeck, President of SIPC, to Ralph Janvey, Receiver of Stanford, August 14, 2009.
48
   15 U.S.C. § 78ddd(c)(1).
49
   15 U.S.C. § 78ddd(c)(2).
50
   15 U.S.C. § 78ddd(g) and (h).
51
   SEC, Inspection Report of Securities Investor Protection Corporation (Apr. 30, 2003), p. 8.
52
   15 U.S.C. § 78fff-3(a).
53
   15 U.S.C. § 78fff-3(d).
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                 March 30, 2011
Report No. 495
                                                     2
for safekeeping, with a view to sale, to cover consummated sales, pursuant to
purchases, as collateral, security, or for purposes of effecting transfer.” 54

Under SIPA, the term “security” means:

         “any note, stock, treasury stock, bond, debenture, evidence of
         indebtedness, any collateral trust certificate, preorganization
         certificate or subscription, transferable share, voting trust certificate,
         certificate of deposit, certificate of deposit for a security, or any
         security future as that term is defined in section 78c(a)(55)(A) of
         this title, any investment contract or certificate of interest or
         participation in any profit-sharing agreement or in any oil, gas, or
         mineral royalty or lease (if such investment contract or interest is
         the subject of a registration statement with the Commission
         pursuant to the provisions of the Securities Act of 1933 [15 U.S.C.
         77a et seq.]), any put, call, straddle, option, or privilege on any
         security, or group or index of securities (including any interest
         therein or based on the value thereof), or any put, call, straddle,
         option, or privilege entered into on a national securities exchange
         relating to foreign currency, any certificate of interest or
         participation in, temporary or interim certificate for, receipt for,
         guarantee of, or warrant or right to subscribe to or purchase or sell
         any of the foregoing, and any other instrument commonly known as
         a security.” 55

SIPA coverage extends to those persons who meet the definition of customer
and to property that meets the definition of security. 56

SIPA liquidations are conducted in U.S. Bankruptcy Courts, 57 with the exception
of certain cases where SIPC can institute a direct payment proceeding if certain
criteria are met. 58

SEC’s Oversight. The Commission monitors the activities of SIPC. Pursuant to
SIPA, the Commission also has the authority to conduct inspections of SIPC, 59
review SIPC annual reports, 60 and approve SIPC’s bylaws, 61 rules, 62 and
amendments to the bylaws and rules. 63 The Office of Broker-Dealer Finances in
54
   15 U.S.C. § 78lll(2).
55
   15 U.S.C. § 78lll(14).
56
   SEC, Inspection Report of Securities Investor Protection Corporation (Apr. 30, 2003), p. 9.
57
   15 U.S.C. § 78eee(b)(2) and (4).
58
   15 U.S.C. § 78fff-4. According to SIPC, Task Force Materials, Tab 3. Topics and Issues, E. Direct
Payment Procedure, Direct Payments (single-page, no date), “in certain situations, SIPC may choose to use
an out-of-court Direct Payment Procedure instead of initiating a liquidation proceeding. The Direct Payment
Procedure allows SIPC to act quickly and inexpensively to return property to customers.”
59
   15 U.S.C. § 78ggg(c)(1).
60
   15 U.S.C. § 78ggg(c)(2).
61
   15 U.S.C. § 78ccc(e)(1).
62
   15 U.S.C. § 78ccc(e)(2).
63
   15 U.S.C. §§ 78ccc(e)(1) and (2).
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                 March 30, 2011
Report No. 495
                                                     3
the SEC’s Division of Trading and Markets (TM) has primary responsibility for
monitoring SIPC. If the Commission is aware of facts that lead it to believe that
any broker-dealer is approaching financial difficulty, the Commission must
immediately notify SIPC. 64 The Office of the General Counsel (OGC) monitors
SIPA liquidations and provides legal guidance. On September 18, 2000, the
Commission authorized OGC to enter notices of appearance in SIPA
proceedings pursuant to a one-year pilot program, which became permanent on
May 20, 2002. The Office of Compliance Inspections and Examinations (OCIE)
performs inspections of SIPC jointly with TM. SIPC is required to submit its
annual report to the Commission for review, and the Commission must transmit
the annual report to the President and Congress. 65

If SIPC refuses or fails to commit its funds for the protection of customers of any
member of SIPC, the Commission may apply to the U.S. district court in which
the principal office of SIPC is located for an order requiring SIPC to discharge its
obligations under SIPA. 66

According to interviews we conducted, we learned that SIPC personnel and SEC
personnel communicate frequently. The Associate Director from the Office of
Broker-Dealer Finances in TM, which has the primary responsibility for
monitoring SIPC, attends SIPC’s quarterly board of directors meetings. The
Chairman of SIPC’s board of directors and the SEC’s Chairman meet periodically
to discuss, among other things, ongoing liquidations and current matters that
may impact SIPC’s operations and the broker-dealer industry. In particular, the
SEC and SIPC have been meeting to discuss matters related to two of the
largest liquidations in SIPC’s history, Lehman Brothers, Inc. (Lehman) and
Bernard L. Madoff Investment Securities, LLC. (Madoff). TM also had numerous
phone conversations with SIPC about matters related to the failure of Stanford
Group Company (Stanford).

Lehman’s liquidation under SIPA commenced in September 2008. 67 The trustee
overseeing the $110 billion customer estate 68 Lehman liquidation reported that
the liquidation process is complicated because of the size and complexity of the
firm and the trustee's limited access to Lehman's books and records. The trustee
further stated that the liquidation process is difficult because Lehman did not
prepare a preliquidation disaster plan. 69 Hence, concrete provisions for the
mechanics of asset transfers were lacking, which contributed to difficulties in the
Lehman bankruptcy. 70 As of October 28, 2010, there were approximately 3

64
   15 U.S.C. § 78eee(a)(1).
65
   15 U.S.C. § 78ggg(c)(2).
66
   15 U.S.C. § 78ggg(b).
67
   http://dm.epiq11.com/LBI/Project/default.aspx#.
68
   “SIPA Trustee for Lehman Brothers, Inc. Files Preliminary Investigation Report: Lessons Learned and
Recommendations to Protect Broker-Dealer Customers,” accessed Mar. 25, 2011, See
http://dm.epiq11.com/LBI/Project/default.aspx. Go to Trustee’s Investigation/Preliminary Report.
69
   Id.
70
   Id.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities              March 30, 2011
Report No. 495
                                                    4
percent of unresolved customer claims in the Lehman case. 71 The SEC has
played a role in the Lehman liquidation from its inception and has met with the
trustee assigned to the Lehman case and SIPC throughout the liquidation
process to discuss pertinent matters related to the case.

Madoff’s SIPA liquidation commenced in December 2008. 72 Among other
matters, the method of payment for customer claims has drawn much attention.
Madoff investors have questioned the method used to pay claims, referred to as
the “cash-in/cash out method,” under which investors who withdrew more money
from their Madoff accounts than they deposited would not be compensated, while
investors who withdrew less than they put in would be compensated. 73 On
September 22, 2010, SIPC representatives testified before the Subcommittee on
Capital Markets, Insurance, and Government Sponsored Enterprises, Committee
on Financial Services, U.S. House of Representatives, to explain the method. 74
On March 1, 2010, Judge Burton Lifland of the U.S. Bankruptcy Court for the
Southern District of New York upheld the Madoff trustee’s method for
adjudicating the Madoff investors’ claims because securities positions are
nonexistent as a result of a Ponzi scheme in which the securities positions shown
on the customers’ account statements had not been purchased and could not
have been purchased in real market trading. 75 This decision has been appealed
and is now pending before the U.S. Court of Appeals for the Second Circuit. The
Commission filed briefs on the issue of the treatment of investors’ claims in both
the Bankruptcy Court and the Court of Appeals for the Second Circuit supporting
the position of both the trustee and SIPC. As of February 18, 2011, there were
approximately 2 percent of unresolved customer claims. 76

Investors who were adversely affected by the $8 billion 77 alleged Robert Allen
Stanford Ponzi scheme have sought protection under SIPA. On August 14,
2009, SIPC stated in a letter to the receiver in the Stanford case that it had
determined that there was no basis for SIPC to initiate a SIPA liquidation
proceeding against Stanford based on the information it had received at the
time. 78 SIPC also asserted, based upon the information it had received, that the
certificates of deposit issued by Stanford International Bank Ltd. were formed
under the laws of Antigua and Barbados, and Stanford International Bank Ltd. is

71
   “State of the Estate October 28, 2010,” Progress To Date, Lehman trustee’s law firm, last accessed Mar.
25, 2011, http://dm.epiq11.com/LBI/Project/default.aspx. Go to Public Reports/Trustee’s
Presentations/Presentations to the Bankruptcy Court.
72
   http://www.madofftrustee.com/Home.aspx.
73
   “Bankruptcy Judge Backs Madoff Trustee’s Payout Calculations,” Noeleen G. Walder, (Mar. 2, 2010),
accessed Oct. 18, 2010, http://www.law.com/jsp/law/LawArticleFriendly/jsp?id=1202444971605 (site
discontinued).
74
   “SIPC Chairman To Defend Method Used To Pay Claims For Madoff Victims,” Sarah N. Lynch, (Sept. 22,
2010), accessed Nov. 8, 2010, http://online.wsj.com/article/BT-CO-20100922-711421.html (site
discontinued).
75
   Id.
76
   http://www.madofftrustee.com/Status.aspx.
77
   http://www.sec.gov/news/press/2009/2009-26.htm.
78
   Letter from Stephen Harbeck, President of SIPC, to Ralph Janvey, Receiver of Stanford, Aug. 14, 2009, p.
3.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                March 30, 2011
Report No. 495
                                                     5
not a SIPC member. 79 Our inquiry with the director and founder of the Stanford
Victims Coalition (SVC) indicated that Stanford investors are maintaining that
they were led to believe that the certificates of deposit were covered under
SIPA. 80

Objectives
As part of its annual audit plan, the OIG conducted an audit of the SEC’s
oversight of SIPC. The overall objective of this audit was to assess the
effectiveness of the SEC’s oversight of SIPC. The audit assessed if the
Commission monitors SIPC’s activities in accordance with governing legislation.
In addition, our audit was performed to assess if the Commission performs
periodic and systematic inspections of SIPC’s activities. Our audit also focused
on determining whether the Commission conducts meaningful reviews of SIPC’s
annual reports. The OIG also determined where improvements and best
practices could be implemented for the SEC’s oversight of the SIPC process.




79
  Id.
80
  Interview with Angie Kogutt, director and founder of the Stanford Victims Coalition, Nov. 22, 2010.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                March 30, 2011
Report No. 495
                                                     6
               Findings and Recommendations

Finding 1: TM and OGC Do Not Maintain
Adequate Written Procedures and Policies for
Oversight of SIPC
        TM and OGC currently do not have adequate written
        procedures and policies for monitoring SIPC’s activities.

Absence of TM’s Written Procedures and Policies for Oversight
of SIPC
The written procedures and policies in place for the SEC’s oversight of SIPC are
limited to a 1999 memorandum that merely lists the SEC’s responsibilities for
monitoring SIPC pursuant to SIPA. 81 The 1999 memorandum describes in
general terms how the Commission monitors SIPC and its operations, as
required under SIPA. Our audit found that TM has not documented the actual
internal procedures it follows to provide oversight of SIPC’s activities. The 1999
memorandum does not provide detailed information about TM’s internal
procedures for oversight activities, such as how to process proposed bylaws or
amendments that SIPC submitted or how reviews of SIPC’s annual reports
(including SIPC’s financial statements) are to be performed.

Additionally, SIPA states that the independent public accountant or a firm of
independent public accountants that audits SIPC’s financial statements and is
selected by SIPC must be deemed satisfactory by the Commission. 82 Our
inquiry of TM regarding its procedure for this review revealed that there is no
written guidance that sets forth the procedures TM utilizes to determine the
competency of an independent public accountant or a firm of independent public
accountants hired to audit SIPC’s financial statements. 83

In addition, some of the limited information contained in the 1999 memorandum
is outdated. For instance, the memorandum provides that the amount of SIPC
protection available for cash claims is $100,000, even though such coverage was
increased in 2010 to $250,000 by the Dodd-Frank Wall Street Reform and
Consumer Protection Act (Dodd-Frank Act). 84


81
   TM memorandum, The Commission’s Oversight Role of the Securities Investor Protection Corporation
(“SIPC”), June 24, 1999.
82
   15 U.S.C. § 78ggg(c)(2).
83
   TM informed the OIG that when SIPC hired its independent auditor in 2002, a senior TM official attended
the interviews SIPC staff conducted, and the senior TM official did not oppose SIPC’s selection of its new
auditing firm.
84
   H.R. 4173, Dodd-Frank Wall Street Reform and Consumer Protection Act, Section 929H, SIPC Reforms.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities               March 30, 2011
Report No. 495
                                                    7
TM acknowledges that having written policies is useful and that documenting its
SIPC monitoring procedures would add transparency to its delegated authority
and responsibilities under SIPA. However, TM stated that it believes that the
absence of documented procedures has not impacted its ability to perform its
tasks related to the oversight of SIPC. TM also asserted that most of its
employees who are responsible for monitoring SIPC’s activities are experienced
staff members who have performed their assigned duties related to SIPC for
many years. However, staff changes at the SEC are common, and we believe
that having documented procedures is critical to ensuring appropriate and
effective monitoring and oversight.

TM informed us that it is in the process of preparing an updated version of the
1999 memorandum, which it intends to complete and circulate to relevant TM
staff members by March 31, 2011. 85

OGC Lacks Adequate Documentation of Its Oversight Role
Related to SIPC
Our audit also found that there is inadequate documentation for the SEC’s
oversight role in OGC. 86 OGC provides legal guidance to TM related to SIPA
liquidations and monitors SIPA proceedings that are handled by independent
court-appointed trustees and SIPC. Our tests and interviews with OGC staff
members revealed that internal policies or procedures regarding OGC’s role
relating to SIPC oversight are not adequately documented. Moreover, during the
timeframe in which we conducted our audit, there was a significant staff turnover
in the OGC bankruptcy group, as the OGC attorney who provided oversight of
SIPC for a number of years retired and was replaced by another attorney. Due
to the lack of adequately documented internal OGC policies and procedures, we
found opposing opinions on how SIPC monitoring activities should be performed.
For instance, the retired attorney monitored Public Access to Court Electronic
Records (PACER) 87 and reviewed court documents for SIPA liquidations in order
to monitor court proceedings to ensure that SIPA liquidations were processed
timely and that trustees appointed to the SIPA liquidations and SIPC were
properly handling SIPA proceedings. The retired attorney reviewed, among other
matters, disputes arising from customer claims for SIPA liquidations. In one

85
   SEC, memorandum to the OIG, Information Request on Implementation of Prior OIG Recommendations¸
Jan. 24, 2011.
86
   In December 2001, OGC drafted a memorandum to the Commission explaining its procedures for
monitoring claims determinations and reviewing fee applications. However, OGC prepared the
memorandum to request that the Commission allow OGC to enter notices of appearance in SIPA
liquidations permanently. Additionally, the memorandum focuses on certain issues and does not discuss
other monitoring activities OGC performs, such as identifying significant legal issues that could lead to filing
briefs in court.
87
   According to its website (http://www.pacer.gov), PACER “is an electronic public access service that allows
users to obtain case and docket information from federal appellate, district and bankruptcy courts, and the
PACER Case Locator via the Internet. PACER is provided by the federal Judiciary in keeping with its
commitment to providing public access to court information via a centralized service.”

SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                  March 30, 2011
Report No. 495
                                                       8
instance during her review of filed dockets on PACER, she disagreed with SIPC’s
denial of a claim and consulted with a TM staff member who agreed with her.
The retired attorney and the TM staff member notified SIPC about the
disagreement. On the contrary, the new successor OGC attorney has indicated
that monitoring PACER could be time-consuming due to the large number of
court documents that are filed in some cases, such as Lehman and Madoff.
Hence, he questioned whether such a practice would be efficient.

This example illustrates the necessity that procedures be documented so that
decisions on how to conduct oversight can be made in a careful and reasoned
manner and do not depend solely on a particular staff member who is working at
the SEC at a given time.

    Recommendation 1:

    The Division of Trading and Markets should document its procedures and
    processes for its oversight and monitoring of the Securities Investor
    Protection Corporation pursuant to the Securities Investor Protection Act.

    Management’s Comments. TM concurred with this recommendation. See
    Appendix V for management’s full comments.

    OIG Analysis. We are pleased that TM concurred with this recommendation

    Recommendation 2:

    The Division of Trading and Markets should complete its efforts to update its
    internal memorandum which describes its oversight responsibilities under the
    Securities Investor Protection Act (SIPA) and include its current practices
    and, where appropriate, the legislative amendments that were made to SIPA
    in July 2010 by the Dodd-Frank Wall Street Reform and Consumer Protection
    Act.

    Management’s Comments. TM concurred with this recommendation. See
    Appendix V for management’s full comments.

    OIG Analysis. We are pleased that TM concurred with this recommendation.

    Recommendation 3:

    The Office of the General Counsel should consult with the Division of Trading
    and Markets to clarify its role in monitoring the Securities Investor Protection
    Corporation (SIPC) and document the responsibilities and procedures it
    follows in regard to the Commission’s oversight of SIPC.



SEC’s Oversight of the Securities Investor Protection Corporation’s Activities   March 30, 2011
Report No. 495
                                                      9
     Management Comments. OGC concurred with this recommendation. See
     Appendix V for management’s full comments.

     OIG Analysis. We are pleased that OGC concurred with this
     recommendation.

     Recommendation 4:

     The Office of the General Counsel should consider the costs and benefits
     related to certain activities that the retired attorney performed and determine
     what, if any, other activities are appropriate to adequately monitor the
     Securities Investor Protection Corporation.

     Management’s Comments. OGC concurred with this recommendation. See
     Appendix V for management’s full comments.

     OIG Analysis. We are pleased that OGC concurred with this
     recommendation.


Finding 2: TM and OCIE Do Not Inspect SIPC’s
Activities in a Systematic Fashion
        TM and OCIE performed a full inspection of SIPC in 2003
        and a follow-up inspection in 2005 to assess whether SIPC
        implemented recommendations from the 2003 inspection.
        Notwithstanding the SEC’s representation to the
        Government Accountability Office (GAO) that it would
        inspect SIPC “every four to five years,” 88 the SEC has not
        conducted a full inspection in nearly 8 years. Currently, the
        SEC has no definitive plans to inspect SIPC in the near
        future.

Findings From Previous Audits of SEC’s Oversight of SIPC
GAO performed an audit of SIPC, which included a review of the SEC’s
monitoring of SIPC, in 1992. 89 In that audit, GAO found that since 1985, the SEC
had evaluated SIPC’s operations one time and had not followed up on the 1985
evaluation to determine if SIPC addressed its recommendations, such as
speeding up the payment of customer claims through an automated liquidation
system. 90 GAO recommended that the SEC periodically review SIPC’s

88
   OIG Report No. 301, Oversight of Securities Investor Protection Corporation (Mar. 31, 2000), p. 5.
89
   Report No. GAO/GGD-92-109, GAO, Securities Investor Protection: The Regulatory Framework Has
Minimized SIPC’s Losses, GAO/GGD-92-109 (Sept. 28, 1992).
90
   Id. at 61.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities              March 30, 2011
Report No. 495
                                                   10
operations and its efforts to ensure timely and cost-effective liquidations. 91 In
response to this recommendation, TM agreed to inspect SIPC “every four to five
years.” 92

The OIG performed an audit of the SEC’s oversight of SIPC’s activities in March
2000. 93 The OIG found that since SIPC’s inception in 1970, the SEC had
inspected SIPC only two times, once in 1985 and a second time in 1994. 94 The
OIG also identified several areas not addressed in past SIPC inspections that
could improve oversight effectiveness95 and recommended that TM and OCIE
decide on a review schedule and inspection scope for future SIPC inspections.
Based on this recommendation, TM and OCIE agreed to prepare a review
schedule and inspection scope for future SIPC inspections. Notwithstanding this
agreement and this recommendation being closed, our inquiries of TM and OCIE
regarding this matter revealed that TM and OCIE never developed a review
schedule or an inspection scope for future SIPC inspections.

The SEC’s Inspection of SIPC in 2003 and Follow-up Inspection
in 2005

As previously mentioned, TM and OCIE performed an extensive inspection of
SIPC in 2003 and a follow-up inspection of SIPC in 2005; however, they have not
since performed any inspections of SIPC. The scope of the 2005 inspection
included follow-up work on the recommendations from the 2003 inspection to
ensure that SIPC had implemented TM’s and OCIE’s recommendations. During
the 2005 inspection, TM and OCIE staff also reviewed additional liquidations that
were not reviewed in the 2003 inspection. However, we learned that TM and
OCIE reviewed the liquidations solely to follow up on the recommendations from
the 2003 inspection. For example, TM and OCIE staff reviewed the billing
records of those additional liquidations to follow up on its 2003 recommendations
regarding controls over trustee fees, but they did not review customer claims in
those liquidations.

Results of the SEC’s Inspection of SIPC in 2003 and 2005

The six findings TM and OCIE made during their 2003 96 SIPC inspection support
the need for the SEC to conduct systematic inspections of SIPC. TM’s and
OCIE’s SIPC inspection findings were as follows: 97

91
   Id. at 63.
92
   OIG Report No. 301, Oversight of Securities Investor Protection Corporation (Mar. 31, 2000), p. 5.
93
   Id.
94
   Id. at 5.
95
   These areas included (1) adequacy of SIPC policies and procedures used to determine whether a
customer request to bring a liquidation proceeding has merit under SIPA, (2) sufficiency of SIPC guidance
given to trustees regarding evidence necessary to establish a valid customer claim and recognition of legal
precedents in liquidation proceedings, and (3) propriety of SIPC decisions made regarding claims submitted
to the trustee during a proceeding. Id. at 5-6.
96
   SEC, Inspection Report of Securities Investor Protection Corporation (Apr. 30, 2003), pp. 1-2.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                March 30, 2011
Report No. 495
                                                    11
        (1) SIPC should improve its controls over fees.
        (2) SIPC should provide written guidance to SIPC personnel
            and individual trustees to use in assessing whether
            claimants have established valid unauthorized trading
            claims.
        (3) One claim in a specified liquidation of a brokerage firm
            (the brokerage firm liquidation), out of approximately 300
            customer claims reviewed by TM and OCIE in the
            liquidation, was improperly denied by the trustee as time
            barred.
        (4) SIPC lacks a record retention policy for records
            generated in liquidations where SIPC appoints an outside
            trustee.
        (5) While SIPC has recently undertaken initiatives to educate
            investors about SIPC, SIPC should review further its
            publicly disseminated information about SIPC coverage,
            including the official explanatory statement, website, and
            brochure, and determine whether revisions are
            necessary to avoid customer confusion.
        (6) SIPC should consider funding options in the event of a
            catastrophically large broker-dealer liquidation.

TM’s and OCIE’s finding regarding the claim in the brokerage firm liquidation
clearly demonstrates a need for the SEC’s ongoing monitoring of customer claim
determinations that are made by court-appointed trustees and SIPC, as the
SEC’s ability to challenge the trustee’s determinations becomes nonexistent as
time passes. 98 The claim in the brokerage firm liquidation cited in the SEC’s
2003 inspection report involved SIPC’s denial of a customer claim that the
trustee believed was not timely filed. 99 Certain SEC staffers indicated that the
claim was not time barred and disagreed with the trustee’s “assertion that the
customer did not meet the requirements that the claim contain a demand by the
creditor on the debtor’s estate and express an intent to hold the debtor liable for
the debt. . . .” 100 According to the 2003 inspection report, “SIPC stated that even
if the claim was timely filed, it would have been denied on the merits.” 101
According to SIPC, the allegedly unauthorized trades that were the basis of the
customer’s claim involved purchases for which the customer never paid and, as a
result, the customer did not suffer any loss. 102 Claimants may appeal the
trustee’s denial, and the SEC has the right to file a brief with the court supporting

97
   Id.
98
   Neither the Commission nor SIPC has any power to overrule a decision made by a trustee even if it were
to determine immediately that a denial was inappropriate. The Commission or SIPC could; however,
challenge the determination in court.
99
   SEC, Inspection Report of Securities Investor Protection Corporation (Apr. 30, 2003), p. 45.
100
    Id. at 12.
101
    SEC, Inspection Report of Securities Investor Protection Corporation (Apr. 30, 2003), p. 44, note 144.
102
    Id.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                March 30, 2011
Report No. 495
                                                    12
the claimant’s appeal and disagreeing with the denial. In this case, the customer
was not made aware of the SEC’s position and did not appeal the denial.
Because the claimant did not appeal the denial, the SEC could not take any
further action. This example illustrates the need for the SEC’s periodic
monitoring of SIPC’s activities and SIPA liquidations, especially in customer
claims determinations to ensure that court-appointed trustees and SIPC properly
administer customer claims.

Furthermore, TM’s and OCIE’s 2003 inspection disclosed that SIPC lacked a
record retention policy for records that are prepared in liquidations and
processed by outside trustees. 103 The SEC was not able to review the records of
a completed liquidation, since the trustee had destroyed the records shortly after
completion of the liquidation and the SEC had not conducted its inspection in a
timely manner. 104 As a result of the SEC’s inspection, SIPC now has a written
record retention policy to keep records for five years, which is provided to
trustees in the SIPC Trustee Guide.

The SEC Does Not Currently Have Definitive Plans to Inspect
SIPC in the Near Future

As discussed previously, currently OCIE and TM do not have a review schedule
or an inspection scope plan for future SIPC inspections. 105 In early 2010, OCIE
and TM stated that they had informally determined that an inspection of SIPC in
2010 would not be feasible due to the ongoing liquidations of Lehman and
Madoff. OCIE and TM indicated that as the SEC’s inspection of SIPC involves
reviewing liquidations in which customer claims have been satisfied, an
inspection of ongoing cases would not be efficient and could possibly disrupt the
process of the ongoing liquidations.

OCIE staff members indicated that they meet with TM staff members on an
annual basis to discuss goals in preparation for issuing OCIE’s Goals
Memorandum 106 in September or October of each year. Both TM and OCIE
agreed that they could discuss the schedule and scope for future SIPC
inspections at the annual meeting.

OCIE and TM staff members indicated that SIPC has proper controls and
procedures in place to process customer claims. Also, TM and OCIE believe that

103
    SEC, Inspection Report of Securities Investor Protection Corporation (Apr. 30, 2003), p. 2.
104
    Id. at 2.
105
    OCIE is in the process of transitioning to a risk-based program for all inspections.
106
    OCIE stated that the purposes of the memorandum include identifying risks and areas for concentration
for annual inspections and informing the Commissioners and the directors of divisions and offices about
OCIE’s goals. The memorandum divides OCIE’s goals and risks by program. The risks and the areas for
concentration are based on OCIE staff members’ observations during past inspections and discussions with
other divisions and offices. The Director and the Deputy Director of OCIE meet with the Chairman and the
Commissioners to discuss the memorandum, to obtain their feedback, and to ensure that they agree with
OCIE’s focus for the inspections.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                March 30, 2011
Report No. 495
                                                    13
the frequency of inspecting SIPC depends on the number of liquidations that are
in progress. If there are no broker-dealer liquidations, then there are no cases
for SIPC to process and none for the SEC to inspect.

However, the OIG found that notwithstanding the SEC’s assurances to GAO and
the OIG, and the need for continuous monitoring, there are no systematic
inspections of SIPC and to date the SEC has not established a scope or
schedule for future inspections of SIPC. Additionally, there have been no formal
discussions between TM and OCIE to plan an inspection of SIPC since the 2005
follow-up inspection.

SIPA Liquidations That Occurred From 2003 to Date Have Not
Been Reviewed
In 2003, TM and OCIE reviewed 14 liquidations that were processed by an
outside trustee and 14 liquidations where the direct payment process was used
or where SIPC was the trustee. 107 In 2005, the SEC reviewed an additional 11
liquidations solely to follow up on the recommendations from the 2003
inspection. 108

During the 2003 and 2005 inspections, TM and OCIE did not review 8
liquidations that had been initiated in 2003 and 2004. 109 Since the SEC’s follow-
up inspection in 2005, there have been 9 additional SIPC liquidations to date. 110
However, the SEC has not reviewed any of these liquidations.

OCIE informed the OIG that the 8 liquidations that were initiated in 2003 and
2004 were not reviewed in 2005 because they were ongoing cases. TM and
OCIE further informed the OIG that they only review completed liquidations or
liquidations where the customer claims are satisfied with certain litigation matters
pending. OCIE indicated that the SEC reviewed liquidations where the customer
claims process was complete, but there may still have been pending litigation
because litigation arising out of SIPC liquidations can continue for many years.

The SEC has been heavily involved with the Lehman and Madoff cases from the
inception of the liquidations of both entities. For instance, a TM staff member
attended SIPC board of directors meetings where the trustees for both cases
presented the status of claims and discussed significant matters. SIPC also
consulted with OGC and TM regarding a payout method to Madoff claimants.
TM also meets with the trustees assigned to the Lehman and Madoff cases on a
periodic basis. Additionally, the Commission’s Atlanta Regional Office reviewed
claim determinations related to the SIPA liquidation of Hanover Investment
107
    OCIE 2003 inspection records.
108
    Id.
109
    According to the OIG’s comparison of the liquidations reviewed by the SEC and the liquidations initiated
in 2003 and 2004 as noted in SIPC’s annual reports for 2003 and 2004. See
http://www.sipc.org/who/annual.cfm for SIPC’s 2003 and 2004 annual reports.
110
    SIPC’s 2005, 2006, and 2008 annual reports. See http://www.sipc.org/who/annual.cfm.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities              March 30, 2011
Report No. 495
                                                    14
Securities, Inc. (Hanover). One Atlanta Regional Office employee stated that she
disagreed with SIPC’s denial of a claim in the Hanover case. SIPC did not agree
with her conclusion, but it eventually paid the claimant.

Despite TM’s and OGC’s ongoing involvement with the Lehman and Madoff
cases and the Atlanta Regional Office’s involvement with the Hanover case,
there have been 14 additional liquidations111 in the past 8 years that have
completely escaped the SEC’s scrutiny. 112 Although 4 113 of the 14 liquidations
are currently ongoing, the remaining 10 liquidation proceedings have either been
closed or the customer claims have been satisfied and thus are ripe for the SEC
to review. The SEC has reviewed cases that have been closed and the
customer claims that have been satisfied during previous inspections. 114 None of
these liquidations have been reviewed, since the SEC has not conducted a full
inspection since 2003.

OCIE and TM staff members informed the OIG that they have no plans to
schedule a future inspection of SIPC until after the Lehman and Madoff cases
are resolved. The liquidations of Lehman and Madoff commenced in September
2008 and December 2008, respectively. 115, 116 While there has been significant
progress with respect to determining certain customer claims, substantial work
remains to be done relating to resolving the customer claims that are being
litigated. TM also indicated that once the claim determinations are completed, it
is possible that additional lawsuits, if they have not already commenced, are
expected for both the Lehman and Madoff liquidations. The majority of claims in
Madoff have been determined, but there will be substantial work to resolve these
claims because of objections to these determinations and the resulting ongoing
litigation.

As TM and OCIE readily acknowledge, the estimated date for the completion of
claim determinations, especially for Lehman, is currently unknown. Thus, there
are no assurances or even indications that the SEC will exercise its oversight
authority to inspect any other SIPC liquidations in a systematic manner in the
foreseeable future. We do not believe that this approach is consistent with the

111
    Out of the 14 liquidations, independent court-appointed trustees processed 6 liquidations, SIPC was the
trustee for 6 liquidations, and 2 liquidations were direct payments.
112
    OGC stated that the predecessor attorney monitored the 14 liquidations to ensure that they were
processed timely. The OIG was unable to verify whether such monitoring occurred because there was no
evidence of review.
113
    Continental Capital Investment Services, Inc., North American Clearing, Lehman and Madoff.
114
    According to the OIG’s review of customer proceedings in process noted in SIPC’s 2009 annual report
and the OIG’s inquiry with SIPC management. See http://www.sipc.org/pdf/2009%20Annual%20Report.pdf
for 2009 SIPC annual report.
115
    On September 19, 2008, the United States Bankruptcy Court for the Southern District of New York
entered an order granting the application of SIPC for issuance of a Protective Decree adjudicating that the
customers of Lehman are in need of protection afforded by the SIPA. See
http://dm.epiq11.com/LBI/Project/default.aspx#.
116
    Pursuant to the application of SIPC, on December 15, 2008, the Honorable Louis L. Stanton, a federal
judge in the United States District Court for the Southern District of New York, appointed Irving H. Picard as
trustee for the liquidation of Madoff. See http://www.madofftrustee.com/Home.aspx.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                  March 30, 2011
Report No. 495
                                                     15
assurances provided in the SEC’s response to GAO’s 1992 SIPC report and its
response to the OIG’s 2000 SIPC report. Based on interviews we conducted and
our analysis, the OIG has determined that more frequent SEC SIPC inspections
will assist claimants and SIPC.

    Recommendation 5:

    The Division of Trading and Markets (TM) and the Office of Compliance
    Inspections and Examinations (OCIE) should conduct meetings, on at least
    an annual basis, to determine when an inspection of the Securities Investor
    Protection Corporation (SIPC) should occur, based on the ongoing
    liquidations, to ensure systematic and risk based monitoring of SIPC’s
    operations. In these meetings, TM and OCIE should develop a schedule for
    future inspections based upon objective criteria or defined risk-factors, such
    as conducting inspections based upon the number of SIPC liquidations.

    Management’s Comments. TM and OCIE concurred with this
    recommendation. See Appendix V for management’s full comments.

    OIG Analysis. We are pleased that TM and OCIE concurred with this
    recommendation.

    In response to TM’s comment regarding TM’s and OCIE’s possible conclusion
    not to inspect SIPC in certain years, we acknowledge that based on their
    assessment, TM and OCIE may conclude that it is not appropriate to specify
    a date for the next SIPC inspection.

    In response to OCIE’s comment, “In early 2010, OCIE and TM jointly
    determined that an inspection of SIPC in 2010 would not be prudent due to
    SIPC’s involvement in certain ongoing large liquidations,” OIG asserts that
    our audit found no evidence that supports this statement.

    Recommendation 6:

    The Division of Trading and Markets and the Office of Compliance
    Inspections and Examinations should perform a risk assessment to determine
    problematic areas or liquidations that are deemed to be complex prior to the
    next inspection of the Securities Investor Protection Corporation (SIPC), as
    they did prior to the commencement of the 2003 inspection of SIPC. The
    scope of each future inspection should take into consideration the risk
    assessment conducted prior to the inspection.




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities   March 30, 2011
Report No. 495
                                                     16
      Management’s Comments. TM and OCIE concurred with this
      recommendation. See Appendix V for management’s full comments.

      OIG Analysis. We are pleased that TM and OCIE concurred with this
      recommendation.


Finding 3: The SEC Does Not Review Fees SIPC
Pays to Court-Appointed Trustees on a Periodic
or Systematic Basis
         The Commission does not perform a review of the fees SIPC
         pays to independent court-appointed trustees on a periodic
         or systematic basis. TM reviewed trustee fees in 1994. TM
         and OCIE reviewed trustee fees during their extensive
         inspection of SIPC in 2003. TM’s and OCIE’s 2005 follow-up
         inspection was conducted to ensure that SIPC implemented
         the SEC’s recommendations from its 2003 inspection.
         However, no reviews of fees paid to trustees have taken
         place since 2003.

Background on Trustee Fees under SIPA

According to the SEC’s 1994 SIPC inspection report, 117 customers’ claims are
paid to the maximum extent possible from the assets of the failed broker-dealer.
Customers share on a pro rata basis in a fund of customer property and in the
general estate, as explained below. 118 The term “customer property” means
“cash and securities (except customer name securities delivered to the customer)
at any time received, acquired, or held by or for the account of a debtor from or
for the securities accounts of a customer, and the proceeds of any such property
transferred by the debtor, including property unlawfully converted.” 119 With
regard to the liquidation of a broker-dealer’s general estate, all costs and
administration expenses, including the costs and expenses for which SIPC has
made advances, must be paid from the general estate before any other claims
are satisfied. 120 The general estate is distributed to creditors in accordance with
the priorities set forth in the Bankruptcy Code. 121 To the extent that customer
property and SIPC advances are not sufficient to satisfy a customer’s claim in



117
    SEC, SIPC Examination Report (Jun. 22, 1994), p. 4.
118
    Catherine McGuire, Memorandum Re: SIPA, Aug. 28, 2009, p. 14.
119
    15 U.S.C. § 78lll(4).
120
    Id., § 78eee(b)(5)(E).
121
    SEC, Inspection Report of Securities Investor Protection Corporation (Apr. 30, 2003), p. 7. See also 11
U.S.C. §§ 503(b) and 507 (a)(1).
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                March 30, 2011
Report No. 495
                                                    17
full, the customer is entitled to participate in the general estate and share pro rata
with other unsecured creditors. 122

Limit on the Amount of Trustee Fees in a Bankruptcy Case. Although SIPA
liquidations are similar to ordinary bankruptcy cases, there is no limit on the
amount of trustee fees paid in SIPA liquidations, unlike bankruptcy cases.
According to the U.S. Code,

        [I]n a case under Chapter 7 or 11, the court may allow reasonable
        compensation under section 330 of this title of the trustee for the
        trustee's services, payable after the trustee renders such services,
        not to exceed 25 percent on the first $5,000 or less, 10 percent on
        any amount in excess of $5,000 but not in excess of $50,000, 5
        percent on any amount in excess of $50,000 but not in excess of
        $1,000,000, and reasonable compensation not to exceed 3 percent
        of such moneys in excess of $1,000,000, upon all moneys
        disbursed or turned over in the case by the trustee to parties in
        interest, excluding the debtor, but including holders of secured
        claims. 123

However, with respect to SIPA liquidations, there is no equivalent provision
capping fees and, thus, there is no statutory limit on the amount of fees a trustee
can earn in a SIPA case.

The Court’s Discretion Under SIPA Is Limited. SIPA states that “[i]n any case
in which such allowances 124 are to be paid by SIPC without reasonable
expectation of recoupment thereof as provided in this chapter and there is no
difference between the amounts requested and the amounts recommended by
SIPC, the court shall award the amounts recommended by SIPC.” 125

Accordingly, under the statute, even if the court finds the amount of fees awarded
to the trustee to be excessive, it is required to approve such excessive fees if
SIPC determines that the fees are reasonable. In a 1985 case, Judge Thomas
Britton of the U.S. Bankruptcy Court for the Southern District of Florida deemed
fees to be awarded to the trustee in a liquidation to be excessive but found he
had no choice but to approve the fees, stating, “The approval or disapproval of
this particular application lies exclusively within the discretion of SIPC under the
express provisions of 15 U.S.C. § 78eee(b)(5)(C) . . . .” 126




122
    SEC, Inspection Report of Securities Investor Protection Corporation (Apr. 30, 2003), p. 7.
123
    11 U.S.C. § 326, Limitation on Compensation of Trustee.
124
    Reasonable compensation for services rendered and reimbursement for proper costs and expenses
incurred. 15 U.S.C. §78eee(b)(5)(A).
125
    15 U.S.C. § 78eee(b)(5)(C).
126
    See also In re First State Securities Corp., 48 B.R. 45, 46 (Bankr. S. D. Fla. 1985).
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                March 30, 2011
Report No. 495
                                                    18
The Court expressed its displeasure with the statutory scheme, stating,

        This statute either intentionally or inadvertently permits someone
        connected with SIPC to authorize questionable payments to
        attorneys from SIPC trust funds under the pretext that these
        payments have been reviewed, approved, authorized and directed
        by a federal court. Nothing could be more misleading.

       Reluctantly, therefore, but without a choice, this application for
       compensation is approved in the amount requested. 127
The judge considered the interim allowance of $80,933 sought by the trustee to
be excessive, but stated he had “no discretion nor any choice” but to approve the
exorbitant amounts. 128

In another instance, in a 1974 case decided prior to the amendment of SIPA in
1978, 129 a court refused to allow SIPC to pay what the court deemed excessive
trustee fees. In a SIPC action against Charisma Securities Corp., 130 Judge
Milton Pollack of the U.S. District Court for the Southern District of New York
disagreed with SIPC’s recommendation and ordered SIPC to pay only $3,500 to
the trustee and $6,500 to the trustee’s law firm, rather than the $5,000 for the
trustee and $25,000 for the law firm that SIPC had recommended. 131 The court
found that the trustee hired accountants with extensive experience in financial
and securities matters who undertook and performed most of the significant tasks
in the liquidation and, therefore, the trustee’s law firm’s work should have been
minimal. 132 The court further noted,

        The liquidation before this Court is, by any and every standard, a
        small one involving small uncomplicated claims. If the fees
        requested herein were to be allowed in full, the result would signal
        a radical departure from the words and intent of the Act created to
        protect customers’ net equities in the hands of enterprises that
        have foundered.…This Court, therefore, simply cannot and will not
        blindly acquiesce—as SIPC apparently has done—in assessing the
        fees requested against the trust fund administered by SIPC. This
        case points up the probable need for legislative readjustment of the
        SIPA and the functions of its administrators. For one thing, all
        appointments of servicing personnel should be subject to court
        control, and all expenses should be submitted to the Court for

127
    Id.
128
    Id.
129
    TM stated that, “The Court had discretion to reject fees when this case was decided. Congress overruled
this case when it amended the SIPA in 1978. This case was relied upon by Congress to mandate that
recommendations by SIPC would be binding on the court in ‘no-assets cases’ unless it results in a
controversy with the applicant.”
130
    Securities Investor Protection Corp. v. Charisma Sec. Corp., 371 F. Supp. 894, 899 (S.D.N.Y. 1974),
aff’d., 506 F.2d 1191 (2d Cir. 1974).
131
    Id. at 895 and 900.
132
    Id. at 895-96.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities              March 30, 2011
Report No. 495
                                                   19
         approval so that a balanced view of the totality thereof can be
         maintained. 133

In another case, Judge Bill Parker of the U.S. Bankruptcy Court for the Eastern
District of Texas, Tyler Division, found that a SIPC trustee’s fee application in the
liquidation proceeding for Sunpoint Securities, Inc. (Sunpoint), needed
improvement and clarity. 134 The court found the following significant concerns
with the sixth interim fee application in the amount of $439,294 that was
submitted by the trustee assigned to the Sunpoint liquidation: 135

      (1) the Application provides insufficient information regarding
          the background and experience of the employed
          professionals to justify the hourly rate requested;
      (2) the Application references services which were so
          insufficiently described as to effectively preclude the Court
          from evaluating the reasonableness and necessity of such
          services and, therefore, the benefit of such services to the
          estate were unclear or undemonstrated;
      (3) the Application requests compensation for services for which
          excessive time was billed for the work actually described;
      (4) the Application fails to some extent to disclose the precise
          time increments dedicated to the performance of certain
          services which inhibits the Court’s ability to ascertain the
          reasonableness of the charges assessed; and
      (5) the Application at times batches or lumps various services
          together in a singular item entry which effectively precludes
          the Court from evaluating the reasonableness and necessity
          of each of the particular services contained in such entries.

In the Sunpoint case, notwithstanding the concerns expressed by the court, SIPC
recommended the fee proposed by the trustee based on the fee application
described above, and because of the statutory language, the court had no
discretion to compel SIPC to reduce the fees.

While there is absolutely no discretion on the part of the court to limit fees
recommended by SIPC in a no-asset case (i.e., a case where SIPC advances
the fees from its fund and there is no reasonable expectation of recoupment)
pursuant to the statute, even when there is reasonable expectation of
recoupment, the statute only provides the courts with limited discretion. Under
15 U.S.C. § 78eee(b)(5)(C), in determining the amount of allowances in all cases
other than those in which there is no reasonable expectation of recoupment from
the general estate and the amounts requested do not differ from SIPC’s
133
    Id. at 899 (emphasis in original).
134
    In re: Sunpoint Securities, Inc., Adversary No. 99-6073 (Bankr. E.D. Tex.), Order Granting Sixth
Application for Allowance of Interim Compensation and Reimbursement of Expenses of Jackson Walker,
LLP, (Apr.18, 2002).
135
    Id. at 3.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                March 30, 2011
Report No. 495
                                                    20
recommendation, “the court shall give due consideration to the nature, extent,
and value of the services rendered, and shall place considerable reliance on the
recommendation of SIPC.” 136

SIPC has stated that in cases where the Court is obligated to rely on its
recommendation,

        “The Court forms its independent judgment on whether fees should be
        allowed, but takes into account SIPC’s recommendation, bearing in mind
        that SIPC ‘functions as the entity charged with the administration of SIPA,
        as an advisor to the court, as the party initiating a liquidation proceeding,
        and as the party which, to a large extent, is responsible for overseeing the
        funds available for use in a liquidation proceeding.’ S. Rep. No. 763, 95th
        Cong., 2d Sess. at 11 (1978).” 137

SIPC’s Review of Trustee Fees
SIPC informed the OIG that since the SEC’s 2003 and 2005 inspections it has
implemented a policy requiring trustees to file quarterly or monthly invoices,
depending on the size and complexity of the liquidation. SIPC further informed
the OIG that independent court-appointed trustees in complex cases send their
timesheets and fee applications to SIPC on either a quarterly or monthly basis
and these documents are reviewed by SIPC staff attorneys. SIPC personnel
also indicated that the monthly invoices for large cases are generally received by
the middle of the subsequent month after the trustee and counsel have reviewed
their own bills. SIPC asserts that it reviews in detail every page of timesheets
and invoices submitted by the trustees. SIPC staff attorneys then prepare a
memorandum for the Assistant General Counsel’s and the General Counsel’s
review. SIPC administrative assistants prepare a fee chart and a summary of
ongoing fees that are approved by the Assistant General Counsel and the
General Counsel on a quarterly basis.

After the Assistant General Counsel and the General Counsel review and
approve the fee applications and the timesheets, SIPC staff attorneys then
prepare a memorandum identifying SIPC’s recommendations, which are
submitted to the bankruptcy court for review.

SIPC stated that it usually asks for a 10 percent reduction in fees and negotiates
fees with the trustees before the liquidation process begins. SIPC also has a
holdback policy which allows it to hold off paying the final fee until the case has
been completed.




136
  15 U.S.C. § 78eee(b)(5)(C).
137
  Electronic mail from a SIPC staff member, Feb. 9, 2011, Subject: Questions on Discretion over Fees.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities            March 30, 2011
Report No. 495
                                                  21
Fees Paid to the Lehman and Madoff Trustees and Trustees’
Counsels

According to the latest published report, the fees paid to the trustee’s counsels
and staff members processing the Lehman claims covering September 2008 to
September 2010 (24 months) totaled approximately $108 million. 138 According to
the fourth interim fee application as of September 30, 2010, the entire
administrative fees, including fees for accountants, consultants, etc., totaled
approximately $420 million. 139

The OIG found that the fees paid to the trustee’s counsel and staff members
processing the Madoff claims for the period from December 2008 to September
2010 (21 months) totaled approximately $102 million. 140 SIPC noted that in the
Madoff case it is advancing SIPC funds to pay all the Madoff case’s
administrative expenses and that it “is not using any customer money for
expenses.”141

The OIG’s review of the trustee fee chart that SIPC prepared revealed that the
hourly rate for the trustee assigned to the Madoff case ranged from $698 to
$742. For the Lehman liquidation, SIPC’s trustee fee chart combined both the
trustee’s time and the time charged by the law firm the trustee hired. The
average hourly rate for the trustee and the law firm personnel involved in the
Lehman liquidation ranged from $437 to $527.

The fees paid to date for the Madoff liquidation are a mere fraction of the amount
that will eventually be sought because, while there has been significant progress
with respect to resolving certain customer claims, significant work remains to be
done relating to customer claims with pending litigation.

The trustee assigned to the Madoff case has stated that he currently does not
believe there will be sufficient funds in the debtor’s estate to make distributions to
priority creditors, nonpriority general creditors, and/or broker-dealers. 142 Also,
the trustee “does not expect that there will be sufficient funds in the general
estate for SIPC to recoup its advances for administrative expenses.” 143



138
    “Trustee’s Fourth Interim Report for the Period May 11, 2010 Through October 26, 2010,” Exhibit 2, last
accessed Mar. 26, 2011, http://dm.epiq11.com/LBI/Project/default.aspx#. Go to Public Reports/Trustee’s
Interim Reports to the Court/Trustee’s Fourth Interim Report: October 26, 2010.
139
    Id.
140
    “Trustee’s Fourth Interim Report for the Period Ending September 30, 2010,” last accessed Mar. 1, 2011,
http://www.madofftrustee.com/documents/FourthInterimReport.pdf. See “Cash Disbursement” chart located
in the back of the Madoff trustee’s Fourth Interim Report.
141
    The Finance Professionals’ Post, Mar. 17, 2010, “Interview: Stephen Harbeck and Irving Picard on the
Lehman and Madoff Cases.”
142
    “VII. Claims Administration,” “B. Claims of General Creditors,” Paragraph 108, p.36, accessed Feb. 1,
2011, http://www.madofftrustee.com/documents/Claims_Process.pdf.
143
    Id.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                March 30, 2011
Report No. 495
                                                    22
Because the outcome of Lehman liquidation is uncertain and SIPC is advancing
its own funds to pay the administrative expenses for the Madoff liquidation, the
possibility exists that SIPC could deplete its $2.5 billion fund. If the SIPC fund is
or reasonably appears to be insufficient, the SEC is authorized to make loans to
SIPC by issuing the Secretary of the Treasury notes or other obligations in an
aggregate amount not to exceed $2.5 billion. 144

The SEC’s Role in Monitoring Fees
The SEC does not periodically review the fees SIPC pays the court-appointed
trustees. OGC monitors fee applications to ensure that they are timely filed and
prepared in a manner that allows for effective review. TM reviewed trustee fees
and other information related to fees in 1994. 145 TM and OCIE reviewed fee
applications and related supporting documents such as timesheets and fee
negotiation documents during the 2003 SIPC inspection. The 2003 inspection
report found that SIPC should improve its controls over fees and stated that “[t]he
SEC staff found indications of excessive trustee and counsel fees in some
liquidations and is concerned about fees charged by certain trustees and their
counsel for work related to the Staff’s inspection of SIPC.” 146 The inspection also
found that the trustees’ work descriptions were not detailed and were generic. 147

In addition, the SEC’s 2003 inspection 148 and 2005 follow-up inspection 149 found
that some trustees and their counsels did not file quarterly invoices with SIPC
and, in the case of large, active liquidations, monthly invoices were not filed. The
SEC also found that certain trustees and their counsels did not provide detailed
descriptions of the services they performed in the invoices, which prevented a
proper and thorough review of the invoices by SIPC. 150

Investors’ Concerns Over Fees
The SEC’s 2003 inspection report acknowledged that the amount of fees SIPC
paid to trustees and their counsel for administering liquidation proceedings
pursuant to SIPA had been the subject of criticism from the investing public. The
report noted that groups such as the Public Investors Arbitration Bar Association
had questioned the amount of fees SIPC paid trustees and their counsel. It also
noted that the past president of the Public Investors Arbitration Bar Association
argued that SIPC spent too much money on administrative expenses (trustee
and counsel fees) and not nearly enough on satisfying customer claims. 151

144
    15 U.S.C. §§ 78ddd(g) and (h).
145
    SEC, SIPC Examination Report (Jun. 22, 1994), pp. 25-26.
146
    SEC, Inspection Report of Securities Investor Protection Corporation (Apr. 30, 2003), p. 1.
147
    Id. at 1.
148
    Id. at 2.
149
    Letter from the Director of OCIE to SIPC President, Re: SEC Inspection of the Securities Investor
Protection Corporation (“SIPC”), Sept. 30, 2005, p. 2.
150
    SEC, Inspection Report of Securities Investor Protection Corporation (Apr. 30, 2003), p. 1.
151
    Id. at 21.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                March 30, 2011
Report No. 495
                                                    23
The criticism and concern expressed with regard to the amount of trustee fees
that have been awarded have reemerged with the two largest liquidations in
SIPC’s history, Lehman and Madoff. According to a news article, on August 20,
2010, the trustee overseeing the Madoff bankruptcy requested that the U.S.
Bankruptcy Court for the Southern District in New York, where the liquidation
case is pending, approve a $96.7 million fee request for work that was conducted
from February 2010 to May 2010. 152 The former Madoff investors objected,
stating that the trustee and his law firm should not receive any payment for the
work because they were improperly trying to minimize SIPC payouts at the
expense of Madoff’s victims. 153 However, the judge presiding over the case
ruled in favor of SIPC and accepted SIPC’s recommended trustee fees. 154

The OIG’s Audit Testing of Trustee Fees
                                                 155
The OIG’s Review of Trustee Fees.        SIPC provided the OIG with a list of the
fees it paid to 11 independent court-appointed trustees from January 2008 to
November 2010, by liquidation. We selected the Hanover, North American
Clearing, Inc. (NAC), Lehman, and Madoff liquidations as part of our review of
billing because the SEC referred these cases to SIPC. The liquidation of these
cases commenced in 2008. 156 There were no SIPC liquidations commenced in
2009 or 2010. 157,158

SIPC provided the first and second Lehman fee applications to the OIG for our
review because this information is available to the public. For the OIG’s review
of the Madoff liquidation, the trustee and SIPC provided us with redacted fee
applications and timesheets covering our requested timeframe, February 2010 to
May 2010. While SIPC provided us with the fee applications and invoices for
both the Lehman and Madoff liquidations, SIPC refused to provide us with
documents containing fee negotiations with the trustees. As recommended in
the SEC’s 2003 SIPC inspection report, SIPC adopted a policy to document all
discussions with trustees and counsel relating to the review of fee applications
and any differences between the amounts that were initially sought by the
trustees and counsel and those that SIPC recommended for payment. 159 Our
inquiry of SIPC revealed that SIPC attorneys documented fee negotiations with

152
    “Madoff victims object to trustee’s fees,” Bloomberg News, (Sept. 2, 201), accessed Dec. 6, 2010,
http://www.crainsnewyork.com/article/20100902/FREE/100909959.
153
    Id.
154
    “Bankruptcy Judge Backs Madoff Trustee’s Payout Calculations,” Noeleen G. Walder, (Mar. 2, 2010),
accessed Oct. 18, 2010, http://www.law.com/jsp/law/LawArticleFriendly/jsp?id=1202444971605 (site
discontinued).
155
    The OIG did not perform an audit of SIPC’s activities and did not review any claim determinations.
156
    2008 SIPC annual report, page 6. See
http://www.sipc.org/pdf/SIPC%20Annual%20Report%202008%20FINAL.pdf.
157
    2009 SIPC annual report, page 6. See http://www.sipc.org/pdf/2009%20Annual%20Report.pdf.
158
    According to the OIG’s review of SIPC’s website (http://www.sipc.org) and inquiry with TM.
159
    Letter from SIPC President to Director of OCIE, Inspection of Securities Investor Protection Corporation,
June 5, 2003.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                 March 30, 2011
Report No. 495
                                                    24
trustees in a memorandum or an e-mail, or made notations on the fee charts or
invoices. SIPC stated that providing such information to the OIG while the
liquidations are in process would reveal the legal strategies used by the trustees
and could jeopardize the liquidation process.

The OIG reviewed fee memoranda and timesheets that were prepared by the
court-appointed trustees and interviewed SIPC officials. We determined that
SIPC’s attorneys performed detailed reviews of the timesheets and focused on
the number of hours and tasks employees performed to ensure the proper
division of work, based on the employee’s experience. For complex and large
cases such as Lehman and Madoff, the trustees prepare a memorandum that
describes, among other things, (1) the nature of the work performed, (2) the
overall expenses, and (3) each month’s average hourly rate. Additionally, we
found that a SIPC attorney reviewed the legal staff’s hours to ensure that the
hours and the type of work assigned to each level of the legal staff appeared
reasonable.

Errors Found on Invoices Prepared by the Trustee and His Counsels. The
OIG’s review of trustee fees disclosed that errors in Lehman invoices related to
expenses for travel and copying invoices, which the trustee and SIPC agreed
that SIPC would not be obligated to pay, were properly corrected before the
trustee submitted the invoices to SIPC.

Based on the examples we have discussed in which courts have challenged the
trustee fees SIPC recommended as being excessive, the limited ability of courts
to question or reject SIPC’s determination to recommend fees, and the SEC’s
concerns with SIPC’s fee process in the 2003 SIPC inspection, the OIG
concludes that a more effective review process and increased oversight of these
determinations are needed. We also believe that SIPC should consider
additional steps it can adopt to reduce trustee fees by establishing higher
discount rates.

SIPC’s Response to Criticism of Trustee Fees

In the Madoff case, the trustee recovered $7.2 billion in December 2010 from the
widow of a longtime Madoff investor. 160 SIPC did not agree to request more than
the 10 percent discount on fees during its negotiations with trustees and stated
that the fees were reasonable, considering the complexity and magnitude of the
liquidations, especially for the Lehman and Madoff cases. SIPC further stated
that it did not want to sacrifice the quality of work that was required to properly
administer SIPC liquidations by trustees and their counsels by seeking further fee
reductions.



160
  http://money.cnn.com/2010/12/17/news/companies/madoff_picower/index.htm?hpt=T1.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities      March 30, 2011
Report No. 495
                                               25
TM’s View on Trustee Fees

TM told the OIG that because it has not reviewed the Lehman and Madoff trustee
fees, it has no ability to judge whether these fees are reasonable. However, TM
acknowledged that it is fair to question whether the current 10 percent fee
reduction is sufficient. Additionally, TM stated that the Commission has no basis
to judge whether the trustee fees in the Lehman and Madoff cases are
reasonable and has not attempted to make such determinations. A bankruptcy
attorney in the SEC’s New York Regional Office who is familiar with SIPC cases
stated that certain trustees appointed to non-SIPC bankruptcy cases and
receivers in SEC enforcement-related cases offer discounts on fees of more than
10 percent. TM acknowledged that in the Lehman and Madoff cases, which are
the largest liquidations in SIPC’s history, it has been difficult to determine
whether the hourly rates the trustees, their counsels, and other legal staff charge
SIPC are reasonable. TM added that the fees the trustees collect for the
Lehman and Madoff cases are steady income for the trustees’ law firms.

The SEC’s Study on Modernizing SIPA Supported Giving
Bankruptcy Judges More Discretion Over Fees

In August 2009, a special counsel in TM conducted a study highlighting issues
with SIPA and SIPC’s rules and bylaws thereunder. TM’s study was intended to
identify possible changes to SIPA to help modernize it. The study also explored
some policy issues that could lead to an expansion of SIPC’s responsibilities
under SIPA or an expansion of SIPA’s protection beyond broker-dealer’s
customers. One of the topics in the study covered reducing administrative
expenses at the discretion of bankruptcy judges.

The study noted that “[w]hile in many cases administrative expenses are borne
exclusively by SIPC, SIPC has precedence over general creditors, including
certain defrauded investors, when seeking reimbursement for administrative
expenses. Thus, there may be public interest in considering whether the
requirement under the Bankruptcy Code that bankruptcy judges determine the
reasonableness of fees paid to trustees and attorneys should be extended to
SIPC cases. Bankruptcy judges could then make use of their experience in other
cases to determine the reasonableness of fees.” 161

As previously discussed, there is a lack of discretion by court under SIPA on
trustee fees in certain cases. Although SIPA liquidations are similar to ordinary
bankruptcy cases, there is no limit on the amount of trustee fees that may be
paid in SIPA liquidations, unlike bankruptcy cases where a limit is imposed on
trustee fees. Additionally, the SEC does not review trustee fees on a periodic
basis. Hence, it would be advisable to have a second party periodically review
the trustee fees that SIPC pays.

161
  Catherine McGuire, Memorandum Re: SIPA, Aug. 28, 2009.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities   March 30, 2011
Report No. 495
                                                     26
    Recommendation 7:

    The Division of Trading and Markets, in coordination with the Office of the
    General Counsel, should conduct additional oversight of the Securities
    Investor Protection Corporation’s (SIPC) assessments of the reasonableness
    of trustee fees and encourage SIPC to negotiate with outside court-appointed
    trustees more vigorously to obtain a reduction in fees greater than 10 percent.

    Management’s Comments. TM and OGC concurred with this
    recommendation. See Appendix V for management’s full comments.

    OIG Analysis. We are pleased that TM and OGC concurred with this
    recommendation.

    Recommendation 8:

    The bankruptcy group in the Office of the General Counsel and the Division of
    Trading and Markets should decide on the scope and frequency of the
    Commission staff’s monitoring of the Securities Investor Protection
    Corporation’s (SIPC) assessments of the reasonableness of trustee fees paid
    by SIPC, rather than relying only on inspections of SIPC, which do not occur
    on a systematic basis.

    Management’s Comments. OGC and TM concurred with this
    recommendation. See Appendix V for management’s full comments.

    OIG Analysis. We are pleased that OGC and TM concurred with this
    recommendation. We acknowledge that TM and OGC are not in a position to
    make an independent assessment of the reasonableness of trustee fees as
    they do not actively participate in the actual liquidation proceeding in a
    meaningful way.

    Recommendation 9:

    The Division of Trading and Markets, in consultation with the Commission,
    shall determine whether to request that Congress modify the Securities
    Investor Protection Act (SIPA) to allow bankruptcy judges who preside over
    SIPA liquidations to assess the reasonableness of administrative fees in all
    cases where administrative fees are paid by the Securities Investor Protection
    Corporation.

    Management’s Comments. TM concurred with this recommendation. See
    Appendix V for management’s full comments.




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities   March 30, 2011
Report No. 495
                                                     27
      OIG Analysis. We are pleased that TM concurred with this recommendation.
      The administrative fees identified in our recommendation relate to the
      trustees and their counsel fees. Further, the recommendation refers to SIPA
      provisions in Section 78eee(b)(5)(C).

Finding 4: SIPA Investor Education Coverage Still
Needs Improvement
         Despite the SEC’s and SIPC’s previous efforts to clarify
         confusion about SIPC’s role and the coverage available
         under SIPA, many investors still do not sufficiently
         understand certain limitations on the coverage SIPA
         provides and the protection against losses resulting from
         broker-dealer failures.

Investors Are Still Confused About SIPA’s Coverage
As part of this audit, the OIG interviewed officials from OIEA and found that
questions and complaints about SIPC that OIEA received from investors have
dramatically increased in the past two years as a result of the Lehman and
Madoff cases. Further, our review of OIEA’s log of complaints and questions
related to SIPC and SIPA from the public covering January 2008 to November
2010 demonstrates that many investors (1) are still confused about the coverage
available under SIPA, and (2) believe that as long as their broker-dealers are
SIPC members they are covered under SIPA.

The director and founder of SVC, a group of approximately 7,400 Stanford
victims, 162 stated that she believed that Stanford investors were misled about
their coverage, as their account statements and many of the novelty items they
received from Stanford contained the SIPC logo. The director further stated that
based on the materials Stanford provided to Stanford investors about SIPA
coverage, Stanford investors had no reason to believe that SIPC would not cover
their investments up to SIPA’s $500,000 limit per customer 163 for claims of
securities. The director indicated that many Stanford investors invested only up
to the $500,000 limit 164 because they thought they would be protected up to this
amount under SIPA.

According to the director of SVC, Stanford investors also expressed concerns
about the investor alerts and updates that the SEC posted on its website
regarding its case against Robert Allen Stanford, and stated that the SEC’s
updates and notices provided information that Stanford investors already knew
and were not helpful. Additionally, the director of SVC stated that direct

162
    Interview of Angie Kogutt, director and founder of the Stanford Victims Coalition, Nov. 22, 2010.
163
    15 U.S.C. § 78fff-3(a).
164
    Id.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                  March 30, 2011
Report No. 495
                                                     28
communication with employees in TM who could articulate the status of the
SEC’s efforts would have been helpful. 165 She further stated that in dealing with
the Stanford matter, Stanford investors felt as though the SEC regarded them as
adversaries and it seemed at times, that they had to force the SEC to do its job.
We also found that many investors assume that SIPA’s coverage is equivalent to
Federal Deposit Insurance Corporation (FDIC) coverage and believe they are
guaranteed to be compensated. The amount of SIPA protection available for
claims of cash is now $250,000, 166 as amended by the Dodd-Frank Act, which is
the same amount as the FDIC’s limit for deposit insurance. 167

Many Investors Do Not Become Aware of SIPA Until Failure of
Their Broker-Dealer

The OIG learned that most investors are unaware of SIPC and SIPA until they
learn about their broker-dealer’s liquidation or failure. When an investor opens
an account with a broker-dealer, he or she is generally not contemplating the
possible liquidation of the broker-dealer. If investors were better educated about
SIPA coverage, they could then question the financial condition of the broker-
dealer before they made an investment.

Confusing Advertisements by SIPC

During our audit, we discussed with OIEA SIPC’s efforts to publicize its existence
and we reviewed SIPC’s 2002 and 2007 public service campaigns. According to
the OIEA Director, the segment shots for SIPC’s public service campaigns are
misleading because they do not fully describe the limitations of SIPA’s coverage.
Additionally, the Director believes that the campaigns seem to overstate SIPC’s
role. For example, one of SIPC’s campaigns stated that as an investor, a
person’s personal safety net includes SIPC. The campaign did not explain that
there are several significant exceptions to SIPA. A second SIPC campaign
compared SIPC to a glove that catches a falling egg, symbolizing an investor’s
nest egg. The commercial further states that SIPC helps investors recover their
securities if the investor’s broker fails. However, the commercial fails to state
that certain securities are not covered under SIPA and that other limitations exist.
These campaigns seem to simplify SIPA’s coverage and may lead investors to
believe that if they lose their securities in the hands of a broker-dealer that is a
SIPC member, they can always recover their losses through SIPC under SIPA.

SIPC’s Response to Advertisements

SIPC stated that in March 2008, the collapse of the Bear Stearns Companies,
Inc., led SIPC to revise and expand its investor education commitment to assure

165
     TM stated that TM staff members did communicate directly with Stanford investors.
166
     15 U.S.C. § 78fff-3(d).
167
    12 U.S.C. § 1821(a)(1)(E).
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities           March 30, 2011
Report No. 495
                                                    29
investors that a brokerage firm failure involves protection under SIPA. SIPC’s
board of directors authorized an expanded and expedited public relations effort in
that regard.

Additionally, SIPC disclosed that in late April 2009, after the failures of Lehman
and Madoff, SIPC suspended these efforts because SIPC was constantly in the
news and the role of SIPC was examined in great public detail. Further, in light
of the litigation arising from the Madoff case, SIPC believed that it would be the
subject of criticism if it were to continue an expensive, high-profile public relations
campaign at a time when some claimants were actively litigating with SIPC over
the nature and the extent of protection under the statute.

SIPC also stated that it has budgeted for a renewed and revised investor
education campaign for late 2011.

Establishment of SIPC Task Force to Modernize SIPA and
Improve Investor Education

According to the SIPC Modernization Task Force website, 168 SIPC created a
SIPC Modernization Task Force (Task Force) on June 17, 2010, to perform a
comprehensive review of SIPA and SIPC’s operations and procedures and to
propose reforms to modernize SIPA and SIPC. The Task Force consists of
investors, lawyers, and industry experts from different interests and groups. The
Task Force has been soliciting public comment on a number of issues. One of
the objectives of the Task Force is to assess how SIPC can improve investor
education.

A senior official from TM is participating on the Task Force as an observer. In
addition, the OIEA Director provided the Task Force with suggestions for
improving investor education. Specifically, the Director provided ideas to
improve investor awareness of SIPC, such as relaying a message (through
advertising) to investors about what SIPC is and what SIPC is not, buying Google
Ad Words, utilizing social network websites such as Facebook, and preparing
advertisements and messages for certain target groups. For instance, if a
broker-dealer in Denver, Colorado, were being liquidated, SIPC could advertise
SIPA coverage to Denver residents. Conducting research through focus group
testing could help determine how much the average investor knows about SIPA’s
coverage. Focus group testing could also help verify the efficacy of SIPC’s
message in its public service campaign or identify the need to modify the
message. The OIEA Director also indicated that given today’s technology,
broker-dealers could identify the assets that are not covered by SIPC in the
account statements that are sent to customers.



168
  http://www.sipcmodernization.org.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities   March 30, 2011
Report No. 495
                                                     30
The President of SIPC stated that the Task Force plans to present its findings,
conclusions, and recommendations to the SIPC board of directors by the first
quarter of 2011. The SIPC board of directors will then review the report and vote
on the recommendations. SIPC’s President further stated that the plan will
contain recommendations that could be implemented by amendments to the
bylaws which the SEC has the authority to approve under SIPA. There may also
be some recommendations that would need to be implemented through
legislative changes. Our inquiry with the Chairman of the SIPC board of directors
revealed that the Task Force has considered designating an employee at SIPC
whose focus would be to improve investor education regarding the role of SIPC
and the coverage that is available under SIPA.

TM’s Response

In regard to improving ways to communicate with investors, TM indicated that the
updates and notices on the SEC’s website and SIPC’s website and the letters
that were sent to Stanford investors who complained to OIEA were sufficient. TM
further stated that it does not have the resources to answer questions directly
from investors and that its coordination with OIEA, which is mainly responsible
for communicating with investors, is sufficient. TM further stated that updating
investors on matters related to ongoing investigations may jeopardize the SEC’s
efforts in litigation. TM also stated that it is difficult to educate the public about
SIPA coverage because of the many legal issues and different factual scenarios
involved in an analysis of SIPA coverage, and that it has been struggling with this
issue for the past 20 years. However, in light of the issues raised in the Lehman,
Madoff, and Stanford matters, it would be useful to consider ways in which the
information provided by SIPC to the investing public could be improved and
made clearer.

    Recommendation 10:

    The Division of Trading and Markets, in coordination with the Office of
    Investor Education and Advocacy, should encourage the Securities Investor
    Protection Corporation to designate an employee whose responsibilities
    include improving investor education and preventing further confusion among
    investors about coverage available under the Securities Investor Protection
    Act.

    Management’s Comments. TM concurred with this recommendation. See
    Appendix V for management’s full comments.

    OIG Analysis. We are pleased that TM concurred with this recommendation.




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities   March 30, 2011
Report No. 495
                                                     31
    Recommendation 11:

    The Division of Trading and Markets should support the Securities Investor
    Protection Corporation’s (SIPC) efforts to improve investor education,
    including encouraging SIPC to strongly consider and, as appropriate,
    implement the Office of Investor Education and Advocacy’s suggestions to
    improve investor awareness.

    Management’s Comments. TM concurred with this recommendation. See
    Appendix V for management’s full comments.

    OIG Analysis. We are pleased that TM concurred with this recommendation.

    Recommendation 12:

    The Division of Trading and Markets, in coordination with the Office of
    Investor Education and Advocacy and in consultation with the Commission,
    should utilize more effective methods to communicate with investors in case
    of the failure of broker-dealers, such as notifying investors of the status of the
    Commission’s efforts throughout the liquidation process or designating an
    employee, as appropriate, who can communicate directly with investors on
    matters unique to each liquidation case.

    Management’s Comments. TM concurred with this recommendation. See
    Appendix V for management’s full comments.

    OIG Analysis. We are pleased that TM concurred with this recommendation.




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities   March 30, 2011
Report No. 495
                                                     32
                                                                                 Appendix I


                            Acronyms/Abbreviations

Dodd-Frank Act                      Dodd-Frank Wall Street Reform and Consumer
                                    Protection Act of 2010
GAO                                 Government Accountability Office
Hanover                             Hanover Investment Securities, LLC
NAC                                 North American Clearing, Inc.
OCIE                                Office of Compliance Inspections and Examinations
OGC                                 Office of the General Counsel
OIEA                                Office of Investor Education and Advocacy
OIG                                 Office of Inspector General
Lehman                              Lehman Brothers, Inc.
Madoff                              Bernard L. Madoff Investment Securities, LLC
SEC or Commission                   Securities and Exchange Commission
SIPA                                Securities Investor Protection Act of 1970
SIPC                                Securities Investor Protection Corporation
Stanford                            Stanford Group Company
Sunpoint Securities, Inc.           Sunpoint
SVC                                 Stanford Victims Coalition
Task Force                          Securities Investor Protection Corporation
                                    Modernization Task Force
TM                                  Division of Trading and Markets




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities   March 30, 2011
Report No. 495
                                                     33
                                                                                 Appendix II


                            Scope and Methodology

As part of its annual audit plan, the OIG conducted an audit of the SEC’s
oversight of SIPC. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Scope. We obtained TM’s internal memorandum listing its responsibilities
related to oversight of SIPC’s activities. The OIG also obtained OCIE’s
inspection manual, which was utilized to conduct inspections of SIPC in 2003
and 2005. Additionally, we obtained planning memoranda listing areas of
concentration, which were prepared by TM and OCIE for the SEC’s inspection of
SIPC. We obtained a memorandum from TM and OCIE describing the status of
the implementation of prior OIG audit recommendations on this program
(Oversight of Securities Investor Protection Corporation, Audit No. 301, March
31, 2000).

We conducted our fieldwork from late November 2010 to January 2011. We
reviewed documentation on the SEC’s monitoring of SIPC’s activities covering
calendar years 2008 and 2009 and from January to November 2010.

Methodology. To accomplish the audit objective of assessing if the SEC
monitors SIPC’s activities in accordance with governing legislation, we conducted
interviews with TM and OGC staff members who are responsible for monitoring
SIPC’s activities. We further conducted inquires to gain an understanding of the
SEC’s process for monitoring SIPC. The OIG reviewed SIPA and its related
legislative history. We also reviewed bylaw amendments SIPC submitted and
correspondence between SIPC and the SEC regarding the bylaw amendments.
We reviewed SIPC’s fee charts that showed the trustee’s fees for SIPA
liquidations of Lehman, Madoff, Hanover, and NAC. Additionally, the OIG
reviewed fee applications, which included timesheets and invoices prepared by
independent court-appointed trustees for the aforementioned SIPA liquidations.
We also interviewed OIEA management who coordinated with TM to respond to
investors with questions and complaints regarding SIPC. The OIG also reviewed
OIEA’s log of investors’ questions and complaints regarding SIPC, the liquidation
of Madoff, and the Stanford case from investors. Further, we interviewed Atlanta
Regional Office staff members who worked on the Hanover case.

To accomplish the audit objective of examining whether the Commission
performs periodic and systematic inspections of SIPC’s activities, we interviewed
TM and OCIE staff members who conducted SIPC inspections. We also

SEC’s Oversight of the Securities Investor Protection Corporation’s Activities   March 30, 2011
Report No. 495
                                                     34
                                                                                      Appendix II


reviewed the SEC’s inspection reports of SIPC, memoranda prepared by OCIE
and sent to the Commission regarding SIPC inspections, and responses from
SIPC regarding the SEC’s findings.

Further, to accomplish the audit objective of determining whether the SEC
conducts meaningful reviews of SIPC’s annual reports, we reviewed SIPC’s
annual reports for 2007, 2008, and 2009, and we observed evidence of the
SEC’s review of SIPC’s annual reports. We conducted interviews of TM and
OGC staff members who review SIPC’s annual reports. To obtain an
understanding on the status of certain SIPA liquidations, the OIG also conducted
inquiries of SIPC attorneys who were assigned to the Lehman, Madoff, Hanover,
and NAC liquidations. Finally, we inquired SIPC management and the Chairman
of SIPC’s board of directors to gain an understanding of SIPA liquidations and
the role of SIPC and the SIPC Task Force, and to obtain an interpretation of the
SIPA provision regarding the court’s discretion over trustee fees that are paid by
SIPC.

Internal Controls. During our audit, the OIG reviewed internal controls as they
pertained to our audit objectives.

Judgmental Sampling. SIPC provided the OIG with 11 listings for the fees it
paid to trustees from January 2008 to November 2010, for each liquidation. The
OIG selected the Hanover, NAC, Lehman, and Madoff litigations for our review of
billing records because the SEC referred these cases to SIPC and the
liquidations commenced in 2008, 169 during the scope of our audit. According to
SIPC’s 2008 annual report, the Great Eastern Securities, Inc., liquidation began
in 2008. However, since SIPC is the trustee for Great Eastern Securities, Inc.,
there were no fees paid to an outside trustee that could be reviewed. Further,
there were no SIPC liquidations in 2009 170 or 2010. 171 For the OIG’s review of
fees for Lehman, SIPC provided the OIG with fee applications and related
supporting documents for the first and second fee applications, which are public
records. For the Madoff case, SIPC requested that the OIG select a sample of
invoices for our review. The OIG selected the fee applications for the quarter
ending May 31, 2010, because the trustee fees for that quarter were substantial.

Prior Audit Coverage. OIG report Oversight of Securities Investor Protection
Corporation, Report No. 301, March 31, 2000.




169
    According to SIPC’s 2008 annual report. See
http://www.sipc.org/pdf/SIPC%20Annual%20Report%202008%20FINAL.pdf.
170
    According to SIPC’s 2009 annual report. See http://www.sipc.org/pdf/2009%20Annual%20Report.pdf.
171
    According to the OIG’s review of SIPC’s website and inquiry with TM.
SEC’s Oversight of the Securities Investor Protection Corporation’s Activities          March 30, 2011
Report No. 495
                                                 35
                                                                                 Appendix III


                                               Criteria
Securities Investor Protection Act of 1970. Enacted to provide investors
protection against losses caused by failure of broker-dealers. Created SIPC,
which either acts as trustee or works with an independent court-appointed trustee
in liquidations of troubled brokerage firms to recover funds for investors with
assets of bankrupt or financially troubled brokerage firms. Adopted December
30, 1970, and last amended July 21, 2010.

Report of the U.S. House of Representatives Committee on Interstate and
Foreign Commerce, House Report No. 95-746, 95th Congress, 1st Session
(October 27, 1977). Contains the legislative history for the Securities Investor
Protection Act amendments of 1978.

Report of the U.S. Senate Committee on Banking, Housing and Urban
Affairs, Senate Report No. 95-763, 95th Congress, 2nd Session (April 25,
1978). Contains the legislative history for the Securities Investor Protection Act
amendments of 1978.

SEC Division of Trading and Markets Memorandum Regarding the
Commission’s Oversight Role of the Securities Investor Protection
Corporation (June 24, 1999). TM’s internal memorandum that describes how
the Commission monitors SIPC and its operations, as required under the
Securities Investor Protection Act of 1970, and other ways the Commission
exercises its oversight responsibilities related to SIPC.

11 U.S.C. § 326, Limitation on compensation of trustee, Pub. L. 95-598
(November 6, 1978). Sets limits on the amount of fees that trustees may be
paid in bankruptcy cases under Chapter 7 or 11.




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities   March 30, 2011
Report No. 495
                                                     36
                                                                                 Appendix IV


                           List of Recommendations

Recommendation 1:

The Division of Trading and Markets should document its procedures and
processes for its oversight and monitoring of the Securities Investor Protection
Corporation pursuant to the Securities Investor Protection Act.

Recommendation 2:

The Division of Trading and Markets should complete its efforts to update its
internal memorandum which describes its oversight responsibilities under the
Securities Investor Protection Act (SIPA) and include its current practices and,
where appropriate, the legislative amendments that were made to SIPA in July
2010 by the Dodd-Frank Wall Street Reform and Consumer Protection Act.

Recommendation 3:

The Office of the General Counsel should consult with the Division of Trading
and Markets to clarify its role in monitoring the Securities Investor Protection
Corporation (SIPC) and document the responsibilities and procedures it follows
in regard to the Commission’s oversight of SIPC.

Recommendation 4:

The Office of the General Counsel should consider the costs and benefits related
to certain activities that the retired attorney performed and determine what, if any,
other activities are appropriate to adequately monitor the Securities Investor
Protection Corporation.

Recommendation 5:

The Division of Trading and Markets (TM) and the Office of Compliance
Inspections and Examinations (OCIE) should conduct meetings, on at least an
annual basis, to determine when an inspection of the Securities Investor
Protection Corporation (SIPC) should occur, based on the ongoing liquidations,
to ensure systematic and risk based monitoring of SIPC’s operations. In these
meetings, TM and OCIE should develop a schedule for future inspections based
upon objective criteria or defined risk-factors, such as conducting inspections
based upon the number of SIPC liquidations.




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities    March 30, 2011
Report No. 495
                                                     37
                                                                                 Appendix IV


Recommendation 6:

The Division of Trading and Markets and the Office of Compliance Inspections
and Examinations should perform a risk assessment to determine problematic
areas or liquidations that are deemed to be complex prior to the next inspection
of the Securities Investor Protection Corporation (SIPC), as they did prior to the
commencement of the 2003 inspection of SIPC. The scope of each future
inspection should take into consideration the risk assessment conducted prior to
the inspection.

Recommendation 7:

The Division of Trading and Markets, in coordination with the Office of the
General Counsel, should conduct additional oversight of the Securities Investor
Protection Corporation’s (SIPC) assessments of the reasonableness of trustee
fees and encourage SIPC to negotiate with outside court-appointed trustees
more vigorously to obtain a reduction in fees greater than 10 percent.

Recommendation 8:

The bankruptcy group in the Office of the General Counsel and the Division of
Trading and Markets should decide on the scope and frequency of the
Commission staff’s monitoring of the Securities Investor Protection Corporation’s
(SIPC) assessments of the reasonableness of trustee fees paid by SIPC, rather
than relying only on inspections of SIPC, which do not occur on a systematic
basis.

Recommendation 9:

The Division of Trading and Markets, in consultation with the Commission, shall
determine whether to request that Congress modify the Securities Investor
Protection Act (SIPA) to allow bankruptcy judges who preside over SIPA
liquidations to assess the reasonableness of administrative fees in all cases
where administrative fees are paid by the Securities Investor Protection
Corporation.

Recommendation 10:

The Division of Trading and Markets, in coordination with the Office of Investor
Education and Advocacy, should encourage the Securities Investor Protection
Corporation to designate an employee whose responsibilities include improving
investor education and preventing further confusion among investors about
coverage available under the Securities Investor Protection Act.




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities    March 30, 2011
Report No. 495
                                                     38
                                                                                 Appendix IV


Recommendation 11:

The Division of Trading and Markets should support the Securities Investor
Protection Corporation’s (SIPC) efforts to improve investor education, including
encouraging SIPC to strongly consider and, as appropriate, implement the Office
of Investor Education and Advocacy’s suggestions to improve investor
awareness.

Recommendation 12:

The Division of Trading and Markets, in coordination with the Office of Investor
Education and Advocacy and in consultation with the Commission, should utilize
more effective methods to communicate with investors in case of the failure of
broker-dealers, such as notifying investors of the status of the Commission’s
efforts throughout the liquidation process or designating an employee, as
appropriate, who can communicate directly with investors on matters unique to
each liquidation case.




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities    March 30, 2011
Report No. 495
                                                     39
                                                                                               Appendix V


                           Management’s Comments




                                           MEMORANDUM

    TO;             Office of Inspector General

    FROM:           Division of Trading and Market s        f)-i--
    cc:             MarkD. Cahn
                    General Counsel, Office of the General COlUlSel

                    Carlo V. di Florio
                    Director, Office of Compliance Inspections and Examinations

                    Lori J. Schock
                    Director, Office of Investor Education and Advocacy

   RE:              The Division of Trading and Markets' Response to the Office of Inspector
                    General Report No. 495, SEC's Oversight of the Securities Investor
                    Protection Corporation's Activities

   DATE:            March 23, 2011


   I.       Introduction

           Thank you for the opportunity to respond to the recommendations in your March
   9,2011 draft report- SEC's Oversight of the Securities Investor Protection Corporation's
   Activities (the "Report"). At the outset, we want to extend our appreciation for the
   professionalism of your staff in conducting the.audit. The responses to recommendations
   directed to the Division of Trading and Markets ("TM") are set forth ,below. 1 This
   includes responses to all recommendations in the Report except Recommendation 4.

   D.      Recommendations Directed to TM

   Recommendation 1: "[TM] should document its procedures andprocesses for its
   oversight and monitoring ofSecurities Investor Protection Corporation r"SIPC'1
   pursuant to the Securities Investor Protection Act r"SIPA '1...

           TM concurs with this recommendation. As is noted in the Report, there is an
   internal TM memorandum dated June 24, 1999 that describes in general tenns the
   Commission's oversight responsibilities under SIPA. TM will update this memorandum
   and, based on the statutory and other responsibilities identified in the memorandum,
   create written procedures more specifically detailing TM's role in executing these
   responsibilities. The updated memorandum and procedures will be distributed to all
   relevant staff.

          We have updated Recommendations 6. 7. 8. and 9 below to reflect revisions to those
   recommendatiODS based on discussions between TM staffand staffin your office.




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities                 March 30, 2011
Report No. 495
                                                       40
                                                                                        Appendix V




   Recommendation 2: "[I'M] should complere its efforts to update its internal
   memorandum which describes its oversight responsibilities under the SIPA and include
   its current practices and where appropriate. the legislative amendments that were made
   to [SIPAj in July 2010, by the Dodd-Frank Wall Street Reform and Consumer Protection
   Act [the "Dodd-Frank Act "j. "

          TM concurs with this recommendation. As is discussed in 1M's Response to
   Recommendation I, 1M will update its internal memorandum relating to SIPC oversight,
   in order to reflect 1M's current oversight practices and amendments to SIPA under the
   Dodd-Frank Act.

   Recomnu!1IthIlibn 3: 'The Office ofGeneral Counsel ["OGC"j should consult with
   [TM] to clarifY its role in monitoring [SlPCj and documenlthe responsibilities and
   procedures itfollows in regards to the Commission's oversighJ ofSIPG. ..

           1M concurs with this recommendation. TM will consult with OGC as suggested
   py Recommendation 3.
   Recommendation 5: "[TMJ and [OC/E] should conduct meetings. at least on an annual
   basis, to determine when an inspection of[SIPCj should occur based on the ongoing
   liquidations to ensure aystemaJic and rislvbased monItoring ofSlPC's operations. 1n
   these meetings, TM and OClE should dewlop a schedule for future inspections based
   upon objective criteria or defined risk-factors, nu:h as conducting inspections based
   upon the number ofSJPC liquidations. ..

            TM COIlCUIS with this recommendation,. subject to our comments in the following
   paragraph.. We have discussed this recommendation with ocm and have agreed to meet
   at least annually to plan fOl" future SIPC inspections. As par:t of this planning process.
   TM and OCIE will consider objective criteria and/or defined risk-based factors to be used
   when assessing whether to commence an inspection of SIPC.

           We note that your recommendation that TM and ocm "determine when 'an
   inspection of [SIPC] should occur based on ongoing liquidatioruJ" could be interpreted to
   suggest that each such annual meeting should result in a detennination of a specific date
   for the next SIPC inspection. TM does not expect that its periodic meetings with ocm
   will in all cases result in detenninations of specific dates for SIPC inspections. [n fact,.
   TM and OCIE may conclude during a meeting that it is not yet appropriate to specify the
   date for the next SIPC inspection. TM and OeIE believe that the timing and scope of
   future SIPC inspections should continue to include a level of flexibility and prioritization
   that provides for the efficient and effective allocation of Commission resources. This
   flexibility also should continue to enable TM: and ocm to plan inspections in a manner
   that minimizes disruptions to SIPC and SrPA trustees in connection with ongoing
   liquidations and to focus inspections on current areas of interest and concern. We
   interpret your recommendation as providing this flexibility.




                                                    2




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities          March 30, 2011
Report No. 495
                                                        41
                                                                                     Appendix V




   Reco_ndation 6: TM and OCIE should perform Q risk assessment to determine
   problematic areas or liquidations that are deemed to be complex prior to the next
   inspection ofSlPC as they did so prior to the commencement ofthe 200] inspection of
   SIPc. The scope ofeach future inspeClion should taU into consideration the risk
   assessment conducted prior to the inspection.

           TM concurs with this recommendation. TM agrees that prior to inspecting SIPC.
   TM and OCIE sho~d perform a risk assessment designed to detennine, with respect to
   SIPC and SIPA. problematic areas or liquidations deemed to be complex. TM and OCIE
   should then determine to what degree to focus their inspection efforts on these areas
   andlor liquidations. This risk-based approach is consistent with the inspection planning
   process employed in prior SIPC inspections and TM believes that this approach results in
   an efficient and effective all~on of Commission resources.

   R~datU",. 7:          TM, in coordination with OGC. sJwuJd conduct additional
   oversight ~r SlPC's assessments ofthe reasonableness oftrustee fees and encourage
   S/PC to negotiate with outsick court-oppointed trustees more vigorously to obtain
   greater than a 10 percent reduction infees.

           Recommendation 7 is, in effect, two separate recommendations. First,
   Recommendation 7 states that 1M, in coordination with OGC. should conduct additiooa.I
   oversight over SIPC's assessments of the reasonableness of trustee fees. TM concurs
   with this recommendation. TM and OGC have agreed. to coordinate with each other to
   determine their respective roles relating to the additional oversight as is described in
   more detail in response to Recommendation 8 below.

           The second part ofRecommendation 7 states that TM, in coordination with OGC.
   should encourage SIPC to negotiate with outside court-appointed trustees more
   vigorously to obtain greater than a 10 pen:ent reduction in fees. TM generally concurs
   with this recommeDdation. 1M recognizes, however. that the size ora trustee's fee
   reduction in a SIPA liquidation will likely vary from case to case based on facts and
   circumstances relevant to a particular liquidation, and. in some cases, SIPC may decide to
   recommend a trustee that has not agreed to a fee reduction greater than 10 percent based
   on factOlS such as the size, complexity andlor location of a liquidation and the limited
   availability of qualified and experienced persons capable of effectively exercising the
   powers granted to a trustee under SIPA.

   RecollUNDldMiolf 8: 'I'M bankruplcy group in OGC and TM should decide on the sco~
   andfrequency oft~ SEC staffs monitoring ofSIPC assessmenb ofthe reasonobleness
   oftrustee feu paid by S1PC. rather than relying only on inspection.r ofSlPC which do
   not occur on a systematic basis.

          1M concw;s with this recommendation and will consult with OGC to determine
   the scope and frequency oftbe SJ;C staff"s monitoring ofSIPC's assessments ofthe
   reasonableness of trustee fees and to determine the respective roles ofTM and OGC in
   the monitoring. Between inspections, TM and aGC plan to review fee applications in


                                                   3




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities        March 30, 2011
Report No. 495
                                                       42
                                                                                      Appendix V




   SIPA cases to make: swe trustees follow the U.S. Trustee guidelines and that SIPC has
   conducted a thorough review ofthc reasonableness of trustee fees. TM and OGC are not
   in a position to make an independent assessment ofthc reasonableness of trustee fees,
   because TM and OGC would nced to, but do not. actively participate in the actual
   liquidation proceeding in a way that would permit that assessmenL

    Reconunendation 9: TM. in consultation with the Commission, shall determine whether
    to request that Congress modify SIPA to allow banJcruptcyjudges who preside over SIPA
    liquidations, to assess the reasonableness ofadministrative fees in all cases where
    administrativefees are paid by SIPC.

           TM understands from the Report and this recommendation that. as a result of
   judicial copunentary in case law since 1978, you would like TM, in consultation with the
   Commission, to clctermine whether to request that Congress modify SIPA to provide for
   judicial review of administrative fees in SIPC cases where judicial oversight docs not
   cWTeI1tlyexist. We assume that when you refer to "administrative fees," you mean the
   fees of trustees and their counsel, and that you are refening to the provisions of Section
   78eee(b)(5Xc) of SIPA that Congress adopted in 1978 to limit thejudicial scrutiny affee
   awards to trustees and their counsel in "no-asset cases" ~ cases in which there is no
   reasonable cxpectalion that SIPC will recoup from the estate of the debtor allowances
   awarded by the court). TM will consult with the Commission for purposes of
   determining whether to make the aforementioned request to Congress.

   ReCfHIfIIWlfdadmt 10: "{TM}, in coordination with {OIEA.}, slwuJd encourage {SIPC} to
   designate an employu whose responribilitie.s include improving investor education and
   prewmtingjitTther confiuion about coverage available under the $eC'UTities I1r1Iestor
   Protection Act among investors. ..

          TM CODCUXS with this recommeodation and will coordinate with OlEA to
   encourage SIPC to designate an employee whose responsibilities include improving
   investor education about SIPC and SIPA coverage.

           As noted in the Report. in 2010, SIPC created a Task Force with a mandate to
   undertake a comprehensive review of SIPA and SIPC's operations and policies, and to
   propose reforms to modernize SIPA and SJPC. Among other things, the Task Force is
   considering whether SIPC should employ an individual whose focus would be to improve
   investor education about SIPC and SIPA. We understand that the Task Force will present
   its f"mdings, conclusions, and proposals to SIPC's Board of Directors in the near future
   and that SIPC's Board ofDi.rectors will vote on the recommendatioDS.

          TM, in coordination with OlEA. wil) encourage SIPC's Board Directors toof
   designate an employee whose responsibilities include improving investor education about
   SIPC and SIPA.         .




                                                   4




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities        March 30, 2011
Report No. 495
                                                       43
                                                                                     Appendix V




   Recommendation Jl: "{I'M] should support IS/PC's] efforts to improve investor
   education, including encouraging S/PC to strongly consider and, as appropriate,
   implement {O/EA 's] suggestions to improve investor awareness. ..

           TM' concurs with this recommendation. TM has supported, and will continue to
   support. the efforts of SIPC and OlEA to improve investor education and awareness
   relating to SIPA and SIPC. We will encourage SIPC to consider and. as appropriate,
   implement OIEA's suggestions to improve investor awareness.

   RUf;",mumdation 12: "[TM], in coordinaJlon with {OlEA} and In consultation with the
   Commission, should utilize more effective me/hods /0 communicate with iffl1estors in case
   ofthefai/lITe ofbrolcer-dealers such as notifying i7JVeslors ofthe status ofthe
   Commission's efforts throughout/he liquidation process or designating an employee, as
   appropriate, who can directly communicate with investors on mailers unique to each
   liquiddtion case. ..

           TM concurs with this recommendation. 1M will coordinate with OlEA to
   develop more effective methods to commwticate with investors affected by broker-dealer
   failures and will consult with the Commission as part of this process.

                                               ••• ••




                                                   5




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities       March 30, 2011
Report No. 495
                                                       44
                                                                                      Appendix V




                                        MEMORANDUM
 To:·     Office of Inspector General

 From: Office of the General Counsel       8-){ ~
 Subj:    OIG's Draft Report - SEC's Oversight of the Secwities Investor Protection
          Cotpmatioo's Activities

 Date:    March 23, 2011

                                           IIltroduction

        On February 28, 2011, the Office of Inspector General. circulated its Discussion
 Draft- SEC's Oversight ofllie Secwities Investor Protection Corporation's Activities.
 On. March 7, 2011 the Office of the General Counsel ("OGCj submitted a memorandum
 offering both technical and substantive comments on this Discussion Draft. On March 9,
 2011, the Office of Inspector General circulated its Draft - SEC's OverSight of the
 Securities Investor Protection Corporation's Activities. The DIG has requested that DOC
 concur or not concur with its recommendations and to provide comments on this Draft
 _ _<t.



          OGC's Responses to RecommeadatiODS 01 Draft Report (as ameoded)


 Rec:ommendatiOD 3 - OGC concurs.

 Rec:ommendatiOD 4 - OGC CODCurs.

 RecOlDmendation 7 - DOC concurs to the extent that the recommendation affects OGC.

 Recommendation 8 - Joint Comment with 1M - TM and OGC generally concur with
 this recommendation and will consult with each other to determine the scope and
 frequency of the SEC staff's monitoring ofSJPC's assessment of the reasonableness of
 trustee fees and to determine the respective roles ofTM and OGC in the monitoring.
 Between examinations, TM and OGC will also review fee applications to make sure they
 follow the U.S. Trustee guidelines and that SIPC has conducted a thorough review of the
 reasonableness oftrustee fees. TM and OGC are not in a position to make: an indepc:ndcnt
 assessment of the reasonableness of trustee fees, because TM and OGC would need to,
 but do not. activdy participate in the aetua11iquidation proceeding in a meaningful way.




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities        March 30, 2011
Report No. 495
                                                     45
                                                                                            Appendix V




                                               MEMORANDUM

                                                                                           March 24, 2011

TO:              H. David Kotz,.lnspector General
                 Office of Inspector General

FROM,            John H. Walsh, Associate     Direc~r-'ef Counsel (Designated Audit LiaiSOn) <J!j)Jl
                 John S. Polise, Associate Directo
                 Helene K. McOee, Assistant Di      r P - - l<tJ. .. /fk.-F /(/::,..
                 Office of Compliance Inspections and Examinations

COPY:            Carlo di Florio, Director
                 Office of Compliance Inspections and Examinations

                 Robert W. Cook, Director
                 Division ofTrading and Markets

RE,              Office of Compliance Inspections and Examinations' Response to the Office of Inspector
                 Oeneral's Draft Report. SEC's Oversight ofthe Securities Investor Protection
                 Corporation's Activities


The Office of Compliance Inspections and Examinations ("ocm',) submits this Memorandum. in
response to the Office of Inspector General's \,OJO'') draft report entitled "SEC's Oversight ofthe
Securities Investor Protection Corporation's Activities," dated March 9, 2011 ("Report''). This
Memorandum responds to OIO's rcx:ommendations that OCIE and the Division of Trading and Markets
("TM") should (1) conduct meetings to detennine when an inspection ofthe Securities Investor
Protection CoIPOration ("SIPC") should occur; and (2) continue to perfonn risk assessments of
problematic areas or liquidations prior to the next inspection of SIPC. You have requested that we
indicate whether we "concur" or "Don-concur" with each recommendation. We have consulted with TM
and are in general agreement that we concur with these recommendations.

Set forth below are our responses to the recommendations directed to ocm contained in the Report.

Reconrntendation 5: "[TlJ] and [OCIE] should conduct meetings, at least on an annual basis, to
determine when an inspection of[SIPC} should occur based on the ongoing liquidations to ensure
systematic and risk-based monitoring o/SIPC 's operation. In these meetings. TM and OCIE should
develop a schedule for future inspections based upon objective criteria or defined risk-factors. such as
conducting inspections based upon the number ofSIPC liquidations. .,

DelE concurs that regular meeQ.ngs with TM would be useful in helping us achieve our objective of
systematic and risk·based monitoring ofSIPC's operations. As noted in the Report, ocm and TM last
performed an inspection ofSIPC in 2003 and a follow-up inspection in 2005 to assess SIPC's activities.
In early 2010, OCIE and TMjointly detennined that an inspection ofSIPC in 2010 would not be
prudent due to SIPC's involvement in certain ongoing large liquidations. The staffofTM has been




      SEC’s Oversight of the Securities Investor Protection Corporation’s Activities         March 30, 2011
      Report No. 495
                                                           46
                                                                                            Appendix V




OClE's Response to OIG Audit - Report No. 495
March 24,2011


actively involved in these liquidations and a considerable amount of SIPC's resources have been
directed towards these liquidations. Based OD these factors, ocm and TM determined that our
resources would be better utilized by waiting for these liquidations to be substantially completed prior to
our next inspection ofSIPC. We also considered the possible disruption an inspection could cause to
SIPC and its activities with respect to these highly complex liquidations and determined that investors
would be better served ifwe waited to commence an inspection ofSIPC. We note also that examiners
do not review liquidations that are in progress because of the disruption it could cause to the liquidation
proceedings.

To date, meetings between ocm and 1M regarding the inspection of SIPC have generally been
informal in nature. For example, we consult with 1M on an annual basis in preparation of ocm's
memorandum that sets forth the annual goals and objectives of the National Exam Program. The
purpose of this memorandum includes identifying risk areas for concentration on inspections. The
memorandum generally includes our goals and objectives with respect to SIPC.

We agree that ocm and TM should conduct more formal periodic meetings regarding inspections of
SIPC. We have discussed this recommendation with 1M and have agreed to meet at least annually for
the purpose ofdetermining when an inspection ofSIPC should occur. In thesemcetin:gs, ocm and TM
will assess whether to commence an inspection of SIPC. OCIE and TM have also agreed to develop
objective criteria or defined risk-factors that will be used to develop a schedule for future inspections.
We concur with the Report's assessment that an approach that considers objective criteria or defined
risk-based factors in detennining when SIPC should be inspected is preferable to an approach that calls
for a set inspection cycle ~ every four to five years) without due consideration to these other factors.

RUb_n4atjqn 6: "(TM) and {OCIE] should perform a risk. assessment to determilU! problematic
arelU or liquidations that are deemed to be complex prior to the next inspection of[SIPC] as they did so
prior to lhe commencement oflhe 2003 inspection ofSIPe. The scope ofeachfuJure inspection should
lake into consideration the risk assessment conductedprior 10 lhe inspection. .,

We arc pleased that the Report agrees with the risk-based approach OCIE and TM took prior to the
commencement of our 2003 and 2005 inspections of SIPc. ocm continues to improve and enhance i.ts
risk-based approach to examination preparation and execution and draws on multiple sources of data to
ensure our risk assessment process is strategic and efficient in identifYing problematic areas. For SIPC
inspections,. this would include identifying high-risk or complex liquidations. We therefore concur with
the recommendation that ocm and TM should continue to perform a risk assessment to determine
problematic areas or liquidations that are deemed to be complex prior to inspections of SIPC. We also
concur that the scope of each future inspection of SIPC should take into consideration these risk
assessments.




                                                       2




     SEC’s Oversight of the Securities Investor Protection Corporation’s Activities          March 30, 2011
     Report No. 495
                                                           47
                                                                                 Appendix VI


       OIG Response to Management’s Comments

The OIG is pleased that TM, OCIE, and OGC concurred with all of the report’s 12
recommendations. We are also encouraged that TM, OGC, and OCIE have
agreed to work together to implement our recommendations and to ensure the
effectiveness of the SEC’s oversight of SIPC’s activities.

We wish to re-emphasize the importance of TM and OCIE developing schedules
for regular inspections of SIPC and making determinations at their annual
meetings of specific dates for SIPC inspections even if every meeting may not
result in a determination of a specific date. We also believe that it is critical for
TM and the bankruptcy group in OGC to engage in significant additional
oversight of SIPC’s assessments of the reasonableness of trustee fees, including
careful and comprehensive review of fee applications; to encourage SIPC to
negotiate greater fee reductions; and to seriously consider requesting that
Congress modify SIPA to allow bankruptcy judges to scrutinize fees of trustees
and their counsel, particularly in no-asset cases. We believe that the
implementation of these recommendations will enhance the SEC’s monitoring of
SIPC and will further ensure that, consistent with the intent of Congress in
enacting SIPA, the investing public is provided adequate protection against
losses caused by the failure of broker-dealers.




SEC’s Oversight of the Securities Investor Protection Corporation’s Activities    March 30, 2011
Report No. 495
                                                     48
                     Audit Requests and Ideas

The Office of Inspector General welcomes your input. If you would like to
request an audit in the future or have an audit idea, please contact us at

U.S. Securities and Exchange Commission
Office of Inspector General
Attn: Assistant Inspector General, Audits (Audit Request/Idea)
100 F Street, N.E.
Washington D.C. 20549-2736

Tel. #: 202-551-6061
Fax #: 202-772-9265
Email: oig@sec.gov




      Hotline
      To report fraud, waste, abuse, and mismanagement at the SEC,
      contact the Office of Inspector General at:

      Phone: 877.442.0854

      Web-Based Hotline Complaint Form:
      www.reportlineweb.com/sec_oig
